<html>
<title> - REGIONAL AIR CARRIERS AND PILOT WORKFORCE ISSUES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
            REGIONAL AIR CARRIERS AND PILOT WORKFORCE ISSUES 

=======================================================================

                                (111-41)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

50-567 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 





























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  


                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
PARKER GRIFFITH, Alabama             HOWARD COBLE, North Carolina
MICHAEL E. McMAHON, New York         JOHN J. DUNCAN, Jr., Tennessee
PETER A. DeFAZIO, Oregon             VERNON J. EHLERS, Michigan
ELEANOR HOLMES NORTON, District of   FRANK A. LoBIONDO, New Jersey
Columbia                             JERRY MORAN, Kansas
BOB FILNER, California               SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JOHN BOOZMAN, Arkansas
ELLEN O. TAUSCHER, California        SHELLEY MOORE CAPITO, West 
LEONARD L. BOSWELL, Iowa             Virginia
TIM HOLDEN, Pennsylvania             JIM GERLACH, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A. WESTMORELAND, Georgia
HARRY E. MITCHELL, Arizona           JEAN SCHMIDT, Ohio
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE COHEN, Tennessee               VERN BUCHANAN, Florida
LAURA A. RICHARDSON, California      BRETT GUTHRIE, Kentucky
JOHN A. BOCCIERI, Ohio
NICK J. RAHALL, II, West Virginia
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)






















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Ayers, Dr. Frank, Chairman, Flight Training Department, Professor 
  of Aeronautical Science, Embry-Riddle Aeronautical University..    45
Babbitt, J. Randolph, Administrator, Federal Aviation 
  Administration.................................................    13
Cohen, Roger, President, Regional Airline Association............    45
Graeber, Ph.D., R. Curtis, Fellow, The Flight Safety Foundation..    45
Lee, Hon. Christopher J., a Representatives in Congress from the 
  State of New York..............................................     8
Loftus, John Michael, Families of Continental Flight 3407, Father 
  of Madeline Loftus/ Victim of Flight 3407 Crash, Former Pilot 
  with Continental Airlines......................................    45
May, James C., President and CEO, Air Transport Association......    45
Morgan, Daniel, Vice President, Safety And Regulatory Compliance, 
  Colgan Air, Inc................................................    45
Prater, Captain John, President, Air Line Pilots Association, 
  International..................................................    45
Rosenker, Mark V., Acting Chairman, National Transportation 
  Safety Board, Accompanied by Thomas E. Haueter, Director, 
  Office of Aviation Safety, National Transportation Safety Board    13
Scovel, III, Calvin L., Inspector General, U.S. Department of 
  Transportation.................................................    13
Slaughter, Hon. Louise M., a Representative in Congress from the 
  State of New York..............................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Capito, Hon. Shelley Moore, of West Virginia.....................    65
Carnahan, Hon. Russ, of Missouri.................................    67
Costello, Hon. Jerry F. Costello, of Illinois....................    68
Johnson, Hon. Eddie Bernice, of Texas............................    78
Lee, Hon. Christopher J., of New York............................    82
McMahon, Hon. Michael E., of New York............................    85
Mitchell, Hon. Harry E., of Arizona..............................    89
Oberstar, Hon. James L., of Minnesota............................    90
Slaughter, Hon. Louise M., of New York...........................    96

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Ayers, Dr. Frank.................................................    99
Babbitt, J. Randolph.............................................   105
Cohen, Roger.....................................................   118
Graeber, Ph.D., R. Curtis........................................   124
Loftus, John Michael.............................................   132
May, James C.....................................................   145
Morgan, Daniel...................................................   149
Prater, Captain John.............................................   158
Rosenker, Mark V.................................................   174
Scovel, III, Calvin L............................................   206

                       SUBMISSIONS FOR THE RECORD

Babbitt, J. Randolph, Administrator, Federal Aviation 
  Administration, additional testimony...........................   115
Boccieri, Hon. John, a Representative in Congress from Ohio, 
  letter to Colgan Air and their response........................    30
Rosenker, Mark V., Acting Chairman, National Transportation 
  Safety Board, Accompanied by Thomas E. Haueter, Director, 
  Office of Aviation Safety, National Transportation Safety 
  Board, responses to questions from the Subcommittee............   196

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



            REGIONAL AIR CARRIERS AND PILOT WORKFORCE ISSUES

                              ----------                              


                        Thursday, June 11, 2009

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Chair will ask all Members, staff and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony on the 
regional air carriers and pilot workforce issues. I intend to 
give a brief opening statement. I will call on the Ranking 
Member Mr. Petri to give his opening statement or remarks. And 
then I intend to call our first panel up, let Congresswoman 
Slaughter testify quickly, and then we will come back to 
Members to give their opening statements after your testimony. 
We understand that Congresswoman Slaughter has a conflict and 
has to be out of here by 10:30, so we are going to accommodate 
your schedule.
    I welcome everyone to the Aviation Subcommittee hearing on 
regional air carriers and pilot workforce issues today. On 
February 12, 2009, a Colgan Air Bombardier Dash 8, doing 
business as Continental Connection Flight 3407, crashed en 
route to Buffalo-Niagara International Airport. All 45 
passengers and the 4 crew members died as well as 1 person on 
the ground.
    Mr. Mike Loftus' daughter Madeline was a passenger on 
flight 3407. I am pleased he is here joining us today to offer 
his testimony. On behalf of each and every Member of this 
Subcommittee, I extend our sincere condolences to everyone as 
well as the family members and friends who lost loved ones in 
this tragic accident.
    The National Transportation Safety Board held a 3-day 
public hearing on May 12, 13 and 14 on the Colgan aircraft 
flight crash 3407. The investigation is ongoing, and the final 
conclusions and outcomes are not expected to be made for many 
months. We need to let the NTSB investigation run its course. 
We will hear from the NTSB this morning. However, the NTSB 
hearing identified the need to closely examine the regulations 
governing pilot training and rest requirements and the 
oversight necessary to ensure their compliance, with a 
particular focus on regional airlines.
    While we do not have all the facts, I am concerned that 
these issues could be symptomatic of larger trends driven by 
economic pressures within the airline industry. We are in an 
economic downturn that has placed enormous pressures on 
airlines to cut costs. Airlines cannot control the cost of fuel 
or the cost of the aircraft, but they can control what they pay 
their pilots, how they train their pilots, what the training 
will cost, and when the pilots can fly.
    Due to cost concerns, major airlines have cut their own 
domestic capacity and have outsourced air transport services in 
many cases to the lowest bidder, to smaller, lower-cost 
regional airlines, and then they keep the passenger ticket 
revenue. Approximately 90 percent of regional airline 
passengers travel on flights that are scheduled, processed, 
marketed, ticketed and handled by major airlines through code 
share arrangements. To win the contract to fly for the major 
carriers, the regional airlines have gone to great lengths to 
provide their services at the lowest possible cost.
    With today's economic and outsourcing business practices, 
pilots with decades of experience are laid off from the major 
carriers, but cannot afford to work for one of the regional 
carriers because they are faced with starting over as a first 
officer making less than $25,000 a year.
    The economic incentives to outsource to cheaper contractors 
must not outweigh the value of having experienced pilots in the 
cockpit. Today regional airlines are viewed by pilots as an 
entry-level stepping stone. They do not pay as well as the 
major airlines, and they do not require as many flight hours to 
get hired. However, regional airlines have been involved in the 
last six fatal airline accidents, and pilot performance has 
been implicated in three of these accidents. There must be one 
level of safety between major and regional airlines mandated 
rather than just recommended by the FAA.
    I believe we need to take an industrywide look at 
strengthening pilot training requirements. In theory, FAA 
training programs certify that every airline, both regional and 
major, train its pilots to the same standard. I think the FAA 
regulations are too broad, and the minimums are too low. We 
must find a solution to fix this so everyone is on the same 
level, not just in theory but in practice.
    I have requested that the inspector general for the 
Department of Transportation review the FAA's regulatory 
requirements for airline pilot training programs and report 
back to this Subcommittee.
    It is important to note that many of the training issues 
that surfaced during last month's NTSB hearing are not new. We 
have seen them surface in other accidents; for example, as a 
result of the December 2003 Federal Express crash at Memphis 
involving a pilot that failed numerous proficiency checks. The 
NTSB recommended requiring airlines to establish remedial 
training programs for pilots who have demonstrated performance 
deficiencies.
    In 2006, the FAA responded by issuing guidance recommending 
that airlines implement remedial training programs. NTSB will 
testify today that despite the FAA's recommendation, Colgan did 
not have the remedial training program in place.
    While I applaud the Obama administration's call to action 
earlier this week, I do not believe that we can rely on 
airlines to voluntarily comply with industry's best practices. 
As we now know from testimony at the public hearings, Colgan 
had not fully implemented industry best practice safety 
initiatives, such as flight operational quality assurance 
programs, before the accident. We need to require all regional 
carriers to implement the best practice safety initiatives that 
are common among the major carriers. Further, the major 
carriers need to take more ownership of the regional carriers' 
training programs and implementation of best practices.
    I also want to have a frank discussion regarding airline 
pilot pay. I have met with a number of pilots, a number of 
groups. I understand their concerns that pay and benefits have 
declined over the years due to bankruptcies, mergers, 
acquisitions, oil prices, 9/11, failed labor negotiations and 
furloughs. Airline pilots are highly skilled safety 
professionals. They are responsible for people's lives. Airline 
pilots deserve the respect that their profession once had, and 
they should be paid far more than $25,000 a year, which is what 
the first officer of Flight 3407 was paid.
    Low pilot pay is symptomatic of other troubling pressures 
and trends within the industry. Some regional airlines are 
paying pilots the absolute minimum that the market will bear 
with no relation to the lives they are responsible for or the 
value or seriousness of the work they perform. It is 
detrimental to the overall self-image and morale within the 
airline pilot profession, which is reflective, in some 
instances, by poor professionalism. While low pilot pay may 
keep airline costs down, it does not serve the public well. 
Moreover, low pay drives away qualified and experienced pilots. 
There was a time when a high percentage of our commercial 
pilots were former pilots in the U.S. military. That is not the 
case today. Far fewer military pilots, when they retire, are 
applying to the airlines when they retire because of the low 
pay of the regional carriers.
    The NTSB is also looking at fatigue with regard to the 
Colgan accident. Fatigue has been on the NTSB's most wanted 
list since 1990 and continues to be identified as an issue in 
many accidents. The FAA has yet to update its rules governing 
crew rest requirements taking into consideration the latest 
research on fatigue. Nor has the FAA developed and used a 
methodology that will continually assess the effectiveness of 
fatigue management systems implemented by operators. This is 
simply unacceptable. I have asked the inspector general to 
conduct an extensive review of fatigue issues, and I look 
forward to hearing how he intends to move forward with this 
audit.
    After this hearing I intend to draft legislation to address 
some of the concerns and issues that we will discuss today.
    Finally, this hearing is not intended to condemn the major 
airlines or all regional carriers. It is intended to identify 
problems in the system that need to be addressed to improve and 
enhance safety.
    Before I recognize Mr. Petri for his opening statement, I 
ask unanimous consent to allow 2 weeks for all Members to 
revise and extend their remarks, and permit submission of 
additional statements and materials by Members and witness. 
Without objection, so ordered.
    At this time the Ranking Member Mr. Petri is recognized.
    Mr. Petri. Thank you very much, Mr. Chairman, for having 
this important hearing. And in light of Representative 
Slaughter's time pressure, and in light of the presence of our 
Ranking Minority Member of the Full Committee, I ask that Mr. 
Mica precede me.
    Mr. Costello. The Ranking Member Mr. Mica is recognized.
    Mr. Mica. Thank you.
    First of all, I want to thank our Chairman Mr. Costello for 
holding this meeting.
    Mr. Petri and I have been concerned about the performance 
and the accident rates of our regional commuter carriers. We 
have some incredible expertise on this panel. Mr. DeFazio was a 
distinguished Ranking Member. You have had the Chair. We have 
another Ranking Member Mr. Ehlers, and Mrs. Capito have a great 
wealth of expertise on this panel. And I think that we have a 
responsibility to make certain that if there are deficiencies 
in the operation of our regional carriers, that actions are 
taken to correct those deficiencies.
    I understand, too, that Ms. Slaughter is here, and our 
sympathies certainly go out to Ms. Slaughter and those from the 
Buffalo area or anyone who lost loved ones in the tragic 
Buffalo commuter airline disaster and to the others who have 
suffered similar losses.
    We will hear from our FAA Administrator. He has only been 
on the job less than 2 weeks. However, I have to express my 
concern that FAA as an agency has been immobilized, and for 2 
years we haven't had an Administrator. When I came to Congress, 
we had five Administrators in about 6 years. We put in place a 
mechanism to change that. It is difficult enough when you have 
an agency with an administrator, let alone an agency that is so 
important and critical to safety, and not have a confirmed 
administrator in place. So I can't criticize in any way Mr. 
Babbitt. He has only been on the job 2 weeks, and these 
problems have festered the last several years.
    There is something wrong when we have planes, commuter 
planes, falling out of the sky. There is something wrong when 
we have repeated accidents. The Chairman just spoke. We have 
had six very serious loss-of-life, fatal commuter crashes. The 
potential factors outlined as the reasons why we had those 
crashes all dealt with pilot performance. Well, I won't say all 
of them, I will say at least four of the six.
    Now, we instituted when I became Chairman a risk-based 
system. And certainly that risk-based system would be geared to 
looking at where we have had problems. And if we have commuter 
airline crashes, and we have pilot performances as a key issue 
in creating some of the factors that led to those crashes, the 
system--there is something wrong in not addressing those 
deficiencies.
    It is my understanding that--and let me go back to--I think 
Peter was involved in this--our FAA reauthorization, the last 
time, I think that Mr. DeFazio will recall that we saw NTSB 
come forward with recommendations that were not instituted. 
They would make a recommendation, and then it would just sort 
of fall off the cliff or would stay on the shelf. Now, we put 
into law a mechanism that required that those recommendations 
be reported back to Congress that were not addressed, and I 
found out yesterday that the DOT and FAA were to have had, in 
February, to Congress, their recommendations on deficiencies in 
aviation, and we still don't have those before Congress. There 
is either something wrong with what we passed, and we need to 
make certain that those recommendations do come to Congress, 
and that either FAA, DOT or the administration, someone, acts 
on those. And when you have repeated fatal crashes, and we have 
a risk-based system, we have a requirement for reporting those 
incidents, and nothing is done, there is something wrong.
    So, Mr. Chairman, you just said that we will pass 
legislation, and I will join you. Let me say in closing also 
the FAA and, I think, the Chairman of NTSB has said he has 
recommended that we open up the performance records of pilots 
beyond 5 years. Now it is limited to 5 years, and then a pilot 
has to give a waiver, and I understand the regionals often 
don't even ask for that. But those records must be opened on 
their performance and I think also on their training and their 
certification to be behind the yoke of an aircraft or in the 
pilot or copilot seat so that we know that people with 
qualifications and training are there; we know that where we 
have identified deficiencies in a pilot's ability to perform or 
to be certified, that that is known.
    So I will join you, our side of the aisle, Mr. Petri and I 
will join you. If we have to take corrective action by 
legislation, we will put in place whatever measures. If we have 
to go back, Mr. DeFazio, and change what we put into law to 
require that those recommendations by NTSB are not just left on 
the shelf--and I was stunned that FAA and DOT still have not 
gotten what should have been in February before us, to us, and 
this is June.
    So again, in the spirit of cooperation, a spirit that we 
need to stop this carnage in the air, I look forward to working 
with you and pledge our support.
    Thank you. I yield back.
    Mr. Costello. I thank the Ranking Member for his comments, 
and we will make two comments concerning points that you made. 
The last reauthorization, I don't necessarily think we need to 
change the law. I think we know what the problem is. It is 
within the FAA. And we need to address that, and we hope that 
the new Administrator will, in fact, address the issue. I 
understand, and when he testifies, we will have an opportunity 
to talk to him about what he intends to implement as far as 
tracking NTSB recommendations at the FAA and reporting to 
Congress.
    Secondly, we do intend to work in a bipartisan manner to 
address a number of issues that need to go into legislation. We 
have a number of recommendations by the NTSB. We have other 
recommendations that are made by the FAA to the airline 
industry that have not been complied with. As opposed to making 
recommendations, we need to put some of these things into law 
so they are mandatory and not discretionary.
    So with that, I would recognize and ask Congresswoman 
Slaughter to please come to the table, and we will be joined by 
Congressman Christopher John Lee as well.
    And at this time, the Chair will recognize the first panel, 
hear from Congresswoman Slaughter and Congressman Christopher 
John Lee. And then after their testimony, we will go back to 
opening statements by any Member who wants to make an opening 
statement.
    At this time the Chair recognizes the Chairwoman of the 
Rules Committee in the House, the distinguished gentlelady from 
the 28th District of New York, the Honorable Louise Slaughter.

      STATEMENT OF THE HON. LOUISE McINTOSH SLAUGHTER, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK

    Ms. Slaughter. Good morning, Mr. Chairman, and I thank you 
for your gracious invitation to be here this morning. I did 
hear so much in both opening statements that made me feel quite 
elated, if we can use that word on such a sad day.
    It is a very important hearing that you are having today, 
and some of the family members from the Buffalo crash are here, 
and among them are Karen and Susan Eckert. sisters of a woman 
named Beverly Eckert, whom we all learned to know and to love, 
because Beverly lost her husband in 9/11 and was one of the 
family members working there, and devoted herself to airline 
safety.
    This Committee is very special to me. It was the first 
Committee I sat on. I sat where Mrs. Capito is, and Peter 
DeFazio and I were elected the same day, and he is very special 
to me all by himself. Peter and I have a caucus. You may not be 
surprised to learn it is called the "cantankerous caucus." 
There are only two of us on it.
    As we are all acutely aware, one of the worst plane 
accidents in the recent U.S. history occurred earlier this year 
on the night of February 12 just outside of Buffalo, New York. 
We lost so many lives that night, and we continue to pray and 
to think often of the people whose grief and loss are 
immeasurable. And we have to learn from this tragedy in order 
to prevent the future loss of life.
    Now, beginning on May 12, the NTSB conducted 3 days of 
hearings on Colgan Air Flight 3407, and we were shocked and 
saddened about what we learned about regional carriers. There 
are still many unanswered questions and lots of work to be done 
to ensure the safety of passengers and crew when traveling on 
regional airlines, and as Members of Congress, it is our 
responsibility and our mission.
    Much of what we have learned about regional airline 
industry training and standards is shocking. And we want to 
immediately attack that, and I am so pleased to hear this 
morning that that will be done. The regional airlines' training 
programs are clearly inadequate. It is unacceptable for flight 
academies such as Florida-based Gulfstream Academy, to 
advertise that they can train amateur pilots who have 
aspirations to fly for a major carrier in only 3 months for as 
much as $30,000 in tuition.
    Passengers deserve only the best-trained pilots, and I 
commend Secretary LaHood and Administrator Babbitt for recently 
ordering the FAA inspectors to ensure that regional carrier 
training programs are complying with the Federal regulations. 
And we must demand that all pilots receive extensive and 
thorough training as well as enforce the high standards for the 
regional carrier industry. I think "enforce" is the operative 
word here.
    I was amazed to learn how little pilots are paid upon 
graduating from flight academies. The first officer was paid 
$16,000 a year. If that isn't a minimum-wage job, I really 
don't know what is. In addition to that, she had to pay her own 
way back and forth to work. I have learned, and I believe this 
is so, that if she was not flying, her wages did not take place 
at all. She was not paid for anything except flight time. Any 
time to and from work was not considered.
    And there is a joke that goes around among some of the 
pilots. It says what do you call a regional first officer 
without a girlfriend? And the answer is homeless. Now, that is 
not funny when regional carriers account for half of the 
country's scheduled airline trips.
    Thousands of lives are at stake daily, and these pilots 
must be compensated properly to ensure that we attract the 
people who can fly the planes adequately, and this leads me to 
the issue of fatigue, which you have spoken of. It was 
certainly a major factor in Buffalo's tragedy because both 
pilots had had no rest. They were not paid sufficient money to 
be able to get a hotel room or stay overnight to sleep, and 
slept sometimes in their cars or in the pilots' lounge, where I 
understand it is perfectly illegal, but they do it nonetheless. 
Now, it is no wonder that they were found sleeping in the crew 
lounges. But we must demand compliance with the orders that we 
have for sufficient rest in order to remain alert and react 
properly. I am one of the thousands of people who believe that 
that was complied with and just assumed that it was.
    But I was stunned to learn that the pilots of Flight 3407 
had failed five tests, including two with Colgan. Even more 
disturbing is that the airline was not aware of the three other 
failures, and Mr. Mica referred to that, something we 
absolutely cannot allow. We must have more transparency. It is 
unacceptable. We have to provide the airlines access to a 
pilot's entire flying history, and it should be made readily 
available on the Internet. Passengers shouldn't have to guess 
whether a pilot is competent and rested and even well, because 
I understand that in some cases they don't get to take off a 
day if they are ill. They fly, or no pay.
    Like many of my colleagues, I fly weekly on regional 
airlines. I purchase my ticket from U.S. Air, but the plane is 
operated and maintained by Wisconsin Air. The information is 
not provided at the point of purchase, let alone prior to 
boarding the plane, and I am sure that 90 percent of the 
persons believe they are flying U.S. Air. We have to require 
airlines to disclose to consumers the operator of the flight 
prior to purchasing their ticket so they have the opportunity 
to make well-informed choices.
    Most recently an FAA investigation accused Florida-based 
Gulfstream Airlines of overworking their pilots and breaking 
airline maintenance rules. And former pilots for Gulfstream 
report watching seeing pieces fall from their airplanes and say 
that records were routinely changed or even erased. They had 
even complained that they had installed on those planes 
unapproved air conditioner compressors. These types of 
practices must come to an end, and regional airlines must be 
held accountable for negligence.
    I think we have only scratched the surface of "anything 
goes," and safety can sometimes be second to profit. We must 
address these critical issues to ensure our safety when 
boarding a regional airline. It is our responsibility and duty 
to help restore the public's faith through introducing strong 
and meaningful legislation which has to require compliance with 
standards, and an FAA that can assure us that they are able to 
certify those standards are being met. There are many charges 
of a too cozy relationship between airline owners and the FAA.
    And I would like to mention, too, I would like to see a 
little more teeth in what the NTSB does with their painstaking 
work and the recommendations. Now, I understand they are only 
recommendations, and they may or may not be followed. I would 
like to see a little bit of work done on that as well. I know 
that they do not want to be regulators, nor do we want them to 
be, but the suggestions that they make after the kind of work 
they do should be given a priority. Lives depend on it.
    Thank you all, Members of this Committee, for allowing me 
to come today, and I look forward to working with you with some 
legislation that can make us all feel safer and bring to some 
fruition the dream of the families and the parents of the 
children who died on that airplane that it won't be happening 
again. Thank you very much.
    Mr. Costello. The Chair thanks you. And we will say that we 
will work closely with you. We have had a meeting earlier in 
the week, and last week we discussed a number of issues, your 
interest in bringing forth legislation. We intend to work 
closely with you, and we thank you for your testimony.
    Ms. Slaughter. I feel a great deal of comfort with your 
expertise and your knowledge of this and your intent in seeing 
this through. I thank you very much for that, Mr. Costello.
    Mr. Costello. Thank you.
    The Chair now recognizes the gentleman from the 26th 
District of New York, the Honorable Christopher John Lee.

STATEMENT OF THE HON. CHRISTOPHER JOHN LEE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Lee. Thank you, Mr. Chairman. I am pleased, actually 
being a resident of Clarence, New York, and being directly 
affected--actually where the plane went down was roughly 3 
miles from where I raise my family. So this obviously has a lot 
of meaning to me; and directly knowing three individuals who 
were on that Flight 3407. So I am grateful to have the 
opportunity to speak here today on an issue that is not only 
important to my constituents, too, but all constituents 
throughout the United States.
    As major airlines have confronted significant challenges in 
maintaining market share, regional airlines have continued to 
expand their operations and now, as we know, account for 
roughly half of the Nation's commercial flights. That includes 
Continental Connection Flight 3407, which departed Newark, New 
Jersey, on the night of February 12, 2009, carrying 49 
passengers and crew en route to Buffalo, New York.
    One of those passengers was a 24-year-old woman by the name 
of Madeline Loftus. Madeline was returning to Buffalo that 
night to play in an alumni hockey game at Buffalo State 
College, and though she had purchased a Continental ticket, she 
was actually flying on a plane operated by Colgan Air, by a 
crew hired and trained by Colgan. Madeline died that evening 
when flight 3407 crashed in Clarence Center New York, just 5 
miles from the Buffalo-Niagara airport. All 49 passengers on 
board and 1 resident on the ground were lost.
    Today this panel will hear from Madeline Loftus' father 
Mike, who served for more than 20 years as a pilot on 
Continental Airlines. Mr. Loftus wants nothing less than to 
ensure that a tragedy like this never occurs again. And I thank 
the Committee for allowing him to appear before you today on 
behalf of the family members of victims 3407.
    I also had the opportunity to meet many of the families, 
and the part that has astounded me is how resolute they are on 
having something positive come out of this horrible tragedy. 
And I commend all of them.
    As you know, the need for further congressional scrutiny of 
this accident became rapidly apparent when recent NTSB hearings 
revealed a number of troubling findings, including the crew's 
lack of hands-on training and experience in the plane's safety 
systems. For instance, the crew was trained in the activation 
of the stick shaker, but not in the next step, activation of 
the stick pusher.
    Questionable handling of failed check rides by Colgan Air, 
specifically despite the fact that the pilot of flight 3407 had 
failed two general aviation check ride failures. We now know 
that Colgan did not attempt to access this information. And I, 
for one, believe the FAA should have made this a mandatory 
requirement, not a voluntary requirement.
    And nonessential cockpit conversation below 10,000 feet is 
in violation of the FAA's sterile cockpit rule.
    These revelations have left the families to struggle with 
the harsh reality that this horrific tragedy may have been 
preventable and far more questions than answers about how all 
the regional carriers operate.
    For my part I am concerned that a culture of cost cutting 
has pervaded the regional air carriers leaving passengers at 
risk. That is why I have joined with my colleagues from west 
New York to push for an independent, comprehensive review of 
all commercial pilot training and certification programs. The 
Government Accountability Office study would look at every 
aspect of these programs, including required training hours, 
training practices for new technologies, and adequacy of 
responses to unsatisfactory check rides.
    Additionally, we are interested in learning what 
information is required to be provided by pilots on their job 
applications, and what ability air carriers now have to verify 
that data. And while we are pleased that the House has given 
the go-ahead for this analysis in the form of an amendment to 
the recently approved FAA reauthorization legislation, it is 
clear that we should not wait any longer to proceed.
    I am submitting into the record today a letter 
Congresswoman Slaughter, Congressman Higgins and I have written 
to the GAO instructing them to begin their work at once. I urge 
this panel to lend its support to this bipartisan effort so we 
can expose information that will inform future steps taken by 
Congress to improve pilot training practices and ensure 
passenger safety and confidence.
    I also urge this panel to hold the FAA accountable and 
demand that it does its part to strengthen oversight of the 
regional air carriers and implement the NTSB's most wanted 
safety recommendations on flying in icy conditions.
    Finally, like many west New Yorkers, as I mentioned, I knew 
several people who lost their lives on Flight 3407, including a 
personal friend of mine, an expectant mother whose child would 
have been just 2 or 3 weeks old at this point in her life.
    I just want to say that I am very proud of the first 
responders, the volunteers and all members of my community for 
coming together to provide support to those who have been 
affected by this horrible tragedy.
    Again, I am grateful for the Committee's time here today, 
and I hope this hearing is just the beginning of a prolonged 
effort to ensure justice is brought forward and increased 
safety for our families. So thank you.
    Mr. Costello. The Chair thanks you for your testimony, and 
we look forward to working with you on legislation.
    The Chair now recognizes the gentleman from Oregon Mr. 
DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for 
convening this important hearing, and hopefully we will get 
results and changes this time. The scheduling of this hearing 
caused me to go back and review some of my history with this 
issue starting in a 1992 hearing on these issues of crew 
training and fatigue. And Mr. Babbitt actually testified during 
that hearing. And I will be following up on some of the issues 
he raised at that time now that he is in charge and hopefully 
can fix the problems that he identified at that time, which I 
believe led directly to the crash of this plane and the deaths 
of many innocent people.
    We need to set some standards here. We have got to stop the 
race to the bottom. We have an industry that is in economic 
distress, and we have a race to the bottom. We have been 
talking about this for a very long time, and it is time for 
action.
    I just find it extraordinary, Mr. Chairman, that the FAA 
has set such a low bar for minimum standards, 250 hours for a 
first officer. Now, of course, it is up to the airline to 
determine how many more hours they would require for initial 
hire, and it is also, unfortunately, up to the airline to 
determine what kind of training they will provide to that 
person once they are hired, although the FAA does oversee or 
confirm the training that the airline would provide.
    None of that is right. We need to set a much, much higher 
minimum bar. And that will get to the root of a lot of these 
problems. This is a fairly serious undertaking, flying an 
airplane, particularly in difficult conditions. We would think 
that it would be perhaps looked at as seriously as training to 
be a nail technician. In the State of Oregon, you have to have 
600 hours of training to be a nail technician. You have to have 
1,350 hours to be a barber, but you can't use chemicals. And 
then when we get to the point of being able to color people's 
hair, it requires 1,700 hours of training. But the FAA has set 
the bar at 250 for pilots, and they leave it up to the these 
regional airlines to determine how many more hours they might 
require for an initial hire.
    That has to change. And if we set the bar a good deal 
higher, then, of course, compensation will follow. If 
compensation follows, we won't find young women living with 
their parents in Seattle, red-eyeing across the country, and 
sleeping in the crew room, and then trying to fly a plane in 
conditions that she did not have adequate experience to deal 
with. This has got to stop. It has to stop. And this hearing 
has to be the beginning of that change at last.
    We will hear from the NTSB. The issue of crew fatigue has 
been on their most wanted list for 19 years. The FAA proposed a 
rule in 1995. We don't have it yet. Why? I am told, well, there 
are big disagreements between the pilots and the airlines. And 
we will hear from the Regional Airline Association. They will 
say no pilot would ever fly fatigued. All they have to do is 
call in and say it. But Mr. Babbitt testified in 1992, no, in 
fact, there is intimidation, harassment and firing if you call 
in fatigued.
    Now, if they can't agree on a rule, it might be because the 
pilots think that the current rules cause people to fly 
fatigued, and the airlines say, well, this would cost us money. 
So if we want to follow the rules that the airlines say they 
follow, which is it is always up to the pilot, then the 
airlines should have conceded to the pilots, we should have 
adopted a fatigue rule. And we shouldn't be sitting here today 
with this hearing. But we are.
    So, Mr. Chairman, I hope this is a new beginning with a new 
administration, a new Administrator, and a very assertive 
Chairman that we finally get these things done. Thank you, Mr. 
Chairman.
    Mr. Costello. The Chair thanks you, Mr. DeFazio, and now 
recognizes the Ranking Member of the Subcommittee Mr. Petri.
    Mr. Petri. Thank you again for holding this hearing, Mr. 
Chairman. And I just need to emphasize that our Committee's 
highest priority is aviation safety, and that comes before 
everything else. And that is what we are attempting to--that 
emphasis is what we are attempting to underline by having this 
hearing and to actually do what we can to actually improve 
safety.
    It is only fair to say that the American aviation industry 
is, in fact--especially the large commercial aviation 
industry--is about the safest in the world. But that is no 
reason for relaxing, and it is no reason for not reviewing and 
improving procedures everywhere that we can. And I know we are 
committed to that goal.
    According to the Department of Transportation Office of 
Inspector General, since 2003, there have been six fatal 
commercial passenger accidents, and all have involved regional 
carriers. So it is imperative that we fully explore the issues 
related to the safety of regional carriers as we are doing in 
this hearing. Four of those, as has been pointed out, where 
evidently, at least in part, pilots' performance as a potential 
factor in the fatal accident.
    The National Transportation Safety Board has made 
recommendations on icy conditions, runway safety and recording 
devices. And in light of their recommendations, I look forward 
to hearing from today's witnesses. It is important that we hear 
from those who are directly involved, and that the witnesses 
have the opportunity to share their expertise and insights on 
how to address this important but complicated aviation safety 
issue.
    A number of my constituents have contacted me, and I will 
be asking some questions that they have suggested as well, 
because this is something that affects, obviously, the 
traveling public and all of us as citizens.
    With that I will put my full statement in the record. I 
just want to thank Mr. Loftus in particular, who is here 
testifying on behalf of the Families of Continental Flight 
3407. I know that your and other members' insights will be 
important to this Committee, and we appreciate the effort you 
have put into being here today.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the Ranking Member.
    I would remind Members that we have 11 witnesses scheduled 
to testify. We have our first panel of two witnesses. Members 
have gone, the Members panel, and now we have a government 
panel. So I would encourage Members, strongly encourage 
Members, if they would, to submit their statements for the 
record. If, in fact, someone wants to make an opening 
statement, feels strongly about it, I will recognize you. But I 
would strongly encourage you to put statements in the record so 
we can get to our witnesses and have ample opportunity for all 
of you to be able to ask them questions.
    With that, the Chair now will go to our panel of witnesses 
before us. The Chair now recognizes Mrs. Schmidt, who wants to 
be recognized.
    Mrs. Schmidt. Mr. Chairman, thank you, and I will be brief. 
I want to thank you for holding this hearing. I want to thank 
our Ranking Member of the Full Committee Mr. Mica, and our 
Ranking Member of the Subcommittee Mr. Petri for this important 
hearing.
    So much has been said about Continental Flight 3407. It is 
a tragic and heartbreaking accident. And I think it is 
important that we do not prejudge what the NTSB is going to say 
when it completes its investigation. But regardless of the 
conclusions it winds up drawing, Congress and the airline 
industry should take a hard look at regional carriers. And 
based on what we have learned so far, we really need to review 
pilot experience, fatigue, training and the safety standards.
    I also think it is fair to recognize that air travel is the 
safest it has ever been, and still I am sure my colleagues in 
the industry would agree that one preventable accident is just 
too many. And so if we can take some reasonable measures and 
precautions to make air travel even safer, it is not that we 
should, we absolutely must.
    I look forward to hearing from everyone, but, most 
importantly, Mr. Loftus, who lost his wonderful 24-year-old 
daughter Madeline, because, you see, I was touched in my own 
district. I represent two wonderful people, Robert and Denise 
Perry of Loveland, Ohio, whose 27-year-old son Johnathan was 
among the passengers. And he was their love and their life, and 
that mother goes to bed every night with empty arms simply 
because pilots made a mistake.
    I continue to be awed by the strength and the perseverance 
of folks like Robert and Denise and their hope when they came 
to me and said, "Make something positive come from this." It is 
our duty to do that. And so I want to thank you, Chairman 
Costello, for giving us this opportunity to make something 
positive out of this. And I look forward to this important 
hearing.
    Mr. Costello. The Chair thanks the gentlelady, and now we 
will introduce our panel of witnesses before us: The Honorable 
Mark Rosenker, who is the Acting Chairman of the NTSB. He is 
accompanied by Mr. Tom Haueter, who is the Director, Office of 
Aviation Safety, with the NTSB; Mr. Randy Babbitt, who is the 
new, as you heard, FAA Administrator; Mr. Calvin Scovel, III, 
who is the inspector general with the U.S. Department of 
Transportation.
    As all of you know, gentlemen, you have testified before 
the Subcommittee before. We would make you aware that your 
entire statement will appear in the record. We would ask you to 
summarize your statement.
    And the Chair now recognizes the Honorable Mr. Rosenker.

   TESTIMONY OF MARK V. ROSENKER, ACTING CHAIRMAN, NATIONAL 
TRANSPORTATION SAFETY BOARD, ACCOMPANIED BY THOMAS E. HAUETER, 
 DIRECTOR, OFFICE OF AVIATION SAFETY, NATIONAL TRANSPORTATION 
   SAFETY BOARD; J. RANDOLPH BABBITT, ADMINISTRATOR, FEDERAL 
 AVIATION ADMINISTRATION; AND CALVIN L. SCOVEL, III, INSPECTOR 
           GENERAL, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Rosenker. Good morning, Chairman Costello, Ranking 
Member Petri and distinguished Members of the Subcommittee. I 
would like to begin my testimony with a short summary of the 
NTSB's investigative actions to date regarding the accident 
involving Colgan Air Flight 3407. I want to emphasize this is 
still an ongoing investigation. There is significant work left 
for our investigators. My testimony today will therefore be 
limited to those facts that we have identified to date, and I 
will steer clear of any analysis of what we have found so far 
and avoid any ultimate conclusions that might be drawn from 
that information.
    On February 12, 2009, at about 10:17 p.m. Eastern standard 
time, Colgan Air Flight 3407, a Bombardier Dash 8 Q-400 crashed 
during an instrument approach to runway 23 at Buffalo-Niagara 
International Airport in Buffalo, New York. The flight was 
operating as a Part 121 scheduled passenger flight from Liberty 
International Airport, Newark, New Jersey. The 4 crew members 
and 45 passengers were killed. The aircraft was destroyed by 
impact forces and postcrash fire. One person in a house was 
also killed, and two individuals escaped from the house with 
minor injuries.
    On May 12, 2009, the NTSB commenced a 3-day public hearing 
on the accident in which we explored airplane performance, cold 
weather operations, sterile cockpit compliance, flight crew 
training and performance, and fatigue management. I would like 
to note that all of these issues are pertinent to every 
airline, operation, major air carriers as well as regional air 
carriers.
    Our investigation continues, and every day we make 
progress.
    Now I would like to discuss some of the Board's important 
safety recommendations. The NTSB has issued numerous 
recommendations to the FAA on stall training, stick pusher 
training, pilot records, remedial training for pilots, sterile 
cockpit, situational awareness, pilot monitoring skills, low-
air-speed alerting systems, pilot professionalism and fatigue, 
and aircraft icing. Two of these issue areas, aircraft icing 
and human fatigue, are on the Board's most wanted list.
    While there are currently more than 450 open 
recommendations to the FAA, on January 12, the Agency took 
action on some of those recommendations when they published an 
NPRM addressing pilot training and qualifications. The notice 
also proposes to amend issues including the requirement of 
flight training simulators and traditional flight crew member 
training programs and adding training requirements in safety-
critical areas.
    The NPRM addresses issues raised in numerous safety 
recommendations that the NTSB has issued to the FAA. In 1995, 
the NTSB issued recommendations to the FAA to require an 
airline to evaluate an applicant pilot's experience, skills and 
abilities before hiring the individual. The following year 
Congress enacted the Pilot Records Improvement Act, PRIA. PRIA 
required any company hiring a pilot for air transportation to 
request and receive records from any organization that had 
previously employed the pilot during the previous 5 years; 
however, PRIA does not require an airline to obtain FAA records 
of failed flight checks. The Board has recognized that 
additional data contained in FAA records, including records of 
flight check failures and rechecks, would be beneficial for a 
potential employer to review and evaluate. Therefore in 2005, 
the NTSB issued another recommendation to the FAA to require 
airlines, when considering an applicant for a pilot position, 
to perform a complete review of the FAA airman records 
including any notices of disapproval for flight checks.
    In response to this NTSB recommendation, the FAA stated 
that notices of disapproval for flight checks for certificates 
and ratings are not among the records explicitly required by 
PRIA, and, therefore, to mandate that air carriers obtain such 
notices would require rulemaking or a change in PRIA itself. To 
the credit of the FAA, on November 7, 2007, an advisory 
circular was issued informing carriers that they can ask pilots 
to sign a consent form giving the carrier access to any notices 
of disapproval.
    The recommendation is currently classified ``Open-
Acceptable Alternate Response.'' However, to date, the FAA has 
not taken rulemaking action or asked Congress to modify the 
Act.
    Mr. Chairman, this concludes my testimony, and I will be 
glad to answer any questions.
    Mr. Costello. The Chair thanks you, Mr. Rosenker, and now 
recognizes the FAA Administrator Mr. Babbitt.
    Mr. Babbitt. Thank you, Chairman Costello, Ranking Member 
Petri and the distinguished Members of the Subcommittee. Thank 
you for inviting me here today to discuss regional air carriers 
and pilot workforce issues.
    Let me begin by saying that we at the FAA deeply mourn the 
tragic loss of Colgan Air Flight 3407. This is an agency that 
is dedicated to aviation safety, and any loss that we incur is 
felt keenly by all of us. Likewise, our sympathies also go out 
to the families and loved ones of the passengers and crew of 
Air France flight number 447.
    This is my first appearance at a hearing before this 
Subcommittee since I was sworn in as the FAA Administrator, and 
I want to advise you that I certainly look forward to working 
with you, Mr. Chairman, and the entire Subcommittee as we move 
forward. We have a very ambitious agenda ahead of us at the 
FAA, and I intend to work very hard to achieve those safety 
goals.
    Since the mid-1990s, there has been a requirement for one 
level of safety that all regional carriers must operate under 
the same rules and at the same level of safety as the major 
airlines, their counterparts. And I am proud to say when I was 
president of the Airline Pilots Association, I led the efforts 
in coordination with the FAA to make those changes. All air 
carriers that operate today with 10 or more seats are required 
to operate at and meet the same level of safety standards and 
the same level of safety oversight across the board.
    When the NTSB conducted its public hearing last month on 
the Colgan Air crash, several issues came to light regarding 
pilot training and their qualifications, pilot crew fatigue, 
and the consistency of safety standards and compliance between 
air transportation operators. Given that the NTSB has not yet 
concluded its investigation, I cannot speak at this point on 
the potential findings. My written testimony does provide 
details, which I will submit, as to the current requirements 
with regard to pilot training, pilot records and flight-time 
and duty-time limitations.
    But I can tell you that on Tuesday, Secretary LaHood and I 
announced that we have ordered FAA inspectors to focus their 
inspections on training programs in order to better ensure that 
all airlines, including regional airlines, are complying with 
Federal regulations. We are also taking the step of gathering 
representatives from the major air carriers, their regional 
partners, aviation industry groups and labor here in 
Washington, D.C., on June 15 to participate in what we are 
calling a Call to Action, and the sole focus will be to improve 
airline safety and pilot training. This review will address 
those issues, pilot training, cockpit discipline and other 
issues, that are associated with flight safety.
    And while we await the findings of the NTSB's investigation 
of the Colgan Air crash, the Secretary and I believe that there 
is no time to lose in acting on the information that we already 
have and is available to us. So on June 15, our summit is 
designed to foster actions-- immediate actions-- and voluntary 
commitments that we will get from the carriers. And they are to 
focus on four key areas: First, air carrier management 
responsibilities for crew education and support; second, 
professional standards and flight discipline; third, training 
standards and performance; and fourth, mentoring relationships 
that exist or should exist between mainline carriers and their 
regional partners.
    The Colgan Air accident and the loss of Air France 447 
remind us that we can never rest on the laurels of our safety 
record, and that we must remain alert and vigilant and aware of 
the challenges that are in our aviation system. We have got to 
continue to work to enhance the safety of this system. This is 
a business where one mistake is one mistake too many.
    So, Chairman Costello, Ranking Member Petri, Members of 
this Subcommittee, this concludes my prepared remarks. I would 
be happy to answer any questions.
    Mr. Costello. The Chair thanks you for your testimony and 
now recognizes the inspector general for the Department of 
Transportation General Scovel.
    Mr. Scovel. Chairman Costello, Ranking Member Petri, 
Members of the Subcommittee, we appreciate the opportunity to 
testify today regarding regional air carriers and pilot 
workforce issues.
    Safety is a shared responsibility among FAA, manufacturers, 
airlines, and airports. Together, all four form a series of 
overlapping controls to keep the system safe. The past several 
years have been one of the safest periods in history for the 
aviation industry; however, the tragic accident in February of 
Colgan Flight 3407 underscores the need for constant vigilance 
over aviation safety on the part of all stakeholders.
    Last month the NTSB held a preliminary hearing into the 
cause of the Colgan accident in which some evidence suggested 
that pilot training and fatigue may have contributed to the 
crash. As a result, Mr. Chairman, you requested that our office 
begin an extensive review into some of the issues that were 
brought to light during that hearing. We have already begun 
work on this review.
    Today I would like to discuss some of the operational 
differences between mainline and regional air carriers and then 
move on to weaknesses in FAA's oversight of the aviation 
industry.
    First, it is important to note that regional flights 
represent one-half of the total scheduled flights in this 
country. And regional airlines provide the only scheduled 
airline service to over 400 American communities. Therefore, it 
is critical that there truly be one level of safety for all 
carriers.
    Our preliminary audit work has identified differences in 
regional and mainline carrier operations and potential 
differences in pilots' training programs and level of flight 
experience. For example, regional carriers typically perform 
short and medium hauls to hub airports. This could result in 
many short flights on the same day for a pilot with a regional 
carrier. Multiple studies by agencies such as NASA have 
concluded that these types of operations can contribute to 
pilot fatigue, but FAA has yet to revise its rules regarding 
crew rest requirements.
    As for FAA's role in determining whether both mainline and 
regional air carriers have developed programs to ensure that 
pilots are adequately trained and have sufficient expertise to 
perform their responsibility, we find these issues to be 
particularly acute for regional carriers. As you know, the last 
six fatal accidents involved regional carriers and the NTSB 
cited pilot performance as a potential contributory factor in 
four of those accidents.
    Moving to my second point, weaknesses in FAA's oversight of 
the aviation industry. Our past work has shown serious lapses 
in FAA's safety oversight and inconsistencies in how many of 
its rules and regulations are enforced. The hearing in April 
2008 before the Full Committee highlighted such weaknesses in 
FAA's risk-based oversight system, known as ATOS, and air 
carrier compliance with safety directives.
    While our work identified safety lapses in Southwest 
Airline's compliance, many stakeholders were concerned that 
they could be symptomatic of much deeper problems with FAA's 
air carrier oversight on a systemwide level.
    In 2002, we reported that FAA needed to develop national 
oversight processes to ensure that ATOS is effectively and 
consistently implemented. Then in 2005, we found that 
inspectors did not complete 26 percent of planned ATOS 
inspections. Last year we reported that weaknesses in FAA's 
implementation of ATOS allowed compliance issues in Southwest's 
maintenance program to go undetected for several years.
    Our most recent, and still ongoing, work has determined 
that lapses in oversight inspections were not limited to 
Southwest. FAA oversight offices for seven other major air 
carriers also missed ATOS inspections. Some had been allowed to 
lapse well beyond the 5-year inspection cycle. Additionally, 
FAA's national oversight of other facets of the industry, such 
as repair stations, has struggled to keep pace with the dynamic 
changes occurring in those industries.
    Mr. Scovel. These facilities are rapidly becoming air 
carriers' primary source for aircraft maintenance.
    We have found that FAA relies heavily on air carriers to 
provide oversight of those repair stations. However, that 
oversight has not always been effective. In 2008, we reported 
that air carriers did not identify all deficiencies at repair 
stations and did not adequately follow up on deficiencies 
identified to ensure that problems were corrected.
    This is of particular concern for regional carriers who 
rely heavily on repair stations. According to data provided to 
the Department, regional carriers send as much as half of their 
maintenance to repair stations. NTSB's investigation into the 
crash of another regional carrier, Air Midwest Flight 5481 in 
January, 2003, identified serious lapses in the carrier's 
oversight of outsourced maintenance.
    Let me conclude, Mr. Chairman, by reiterating that we will 
continue to do our part in advancing the Department's goal of 
one level of safety. While all stakeholders are committed to 
getting it right, including FAA, who has made progress in 
improving aspects of its safety oversight, our work continues 
to identify significant vulnerabilities that must be addressed. 
This will require actions in areas FAA has already targeted for 
improvement, as well as other areas where FAA will need to 
revisit differences in standards and regulations and rethink 
its approach to safety oversight.
    That concludes my statement, Mr. Chairman. I would be happy 
to address any questions you or any other Members of the 
Subcommittee might have.
    Mr. Costello. Thank you, Mr. Scovel.
    And as I mentioned earlier that I had a meeting with 
Administrator Babbitt on some of these issues, I also had a 
meeting earlier this week with Mr. Scovel.
    The Chair now recognizes the distinguished Chairman of the 
Full Committee, Chairman Oberstar.
    Mr. Oberstar. Thank you for holding this hearing, Mr. 
Chairman, your continuing vigilance over aviation safety and 
the tight rein you are holding on government--and 
accountability on government agencies and on the airlines 
themselves.
    As I said many, many times, safety begins in the corporate 
board room. You need a corporate culture of safety permeating 
the industry. And where that lapses, then the FAA, the National 
Transportation Safety Board, the Inspector General, and our 
Committee and our counterpart Committee in the other body must 
maintain vigilance.
    And we have done that. We had a hearing on regional safety 
when I chaired this Subcommittee 15, 17, 18 years ago. I think 
you testified at that hearing, Captain Babbitt. And the NTSB 
has time again issued recommendations and directives--not 
directive but recommendations for action, and those need to be 
implemented, and we need the Transportation Safety Board's 
continued vigilance.
    You mentioned as I walking in, Administrator--Captain 
Babbitt, flight deck management and procedures, and I hope that 
is a matter we can explore further in the course of this 
hearing. But it is one that you need to review.
    Again, I hope that this meeting you have called that there 
will be renewed interest in pairing in the flight deck of the 
pilot and the first officer, matching experience levels, 
revisiting the experience levels of those who serve on the 
flight deck in regional airline operations, assuring that there 
is compatibility and comparability of service.
    All too often we have seen in the past and in the tragedy 
that occurred in Hibbing in my district, we had a very--a 
relatively senior captain and a very junior first officer who 
was intimidated by his captain and reluctant to speak up and 
say, are you--as we know from the voice recorder, didn't say 
anything while going through a fast rate of descent.
    We need to have that ability of that flight deck crew to 
talk with each other if--for one who sees something that is not 
quite appropriate to speak up and have--feel the freedom to 
speak up and understand that he or she has the responsibility 
to speak up. And I see Chairman Rosenker nodding in agreement, 
and I appreciate that.
    In the 1990s, the Department and the FAA concurred in the 
industry on a one level of safety. You can't have one for one--
Part 121 carriers, Part 135 carriers, and for the air taxi 
services and for the rest. We need one level of safety. You can 
begin your tenure as Administrator by ensuring that one level 
of safety is revived, alive, and well, invigorated and 
enforced. That is what we are looking to you to do.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you, Mr. Oberstar.
    Mr. Scovel, you indicated in your testimony--you heard me 
mention in my opening statement that, in theory, we have this 
one level of safety for both the majors and the regionals, but, 
in practice, it does not exist. And is that what I heard you 
say when you testified?
    Mr. Scovel. That is correct, Mr. Chairman.
    Mr. Costello. What is your recommendation on what should be 
done in order to take it from theory to practice to make 
certain that we in fact do have one level of safety for the 
majors as well as the regionals?
    Mr. Scovel. Mr. Chairman, the phrase ``one level of 
safety'' to me expresses FAA's, the Department's and the 
Congress' goal or aspiration for one standard of safety. But, 
clearly, the record tells us that we haven't reached it yet. 
One level implies level. It implies attainment or achievement. 
We are not there yet.
    In order for FAA to get there, it needs to pay greater 
attention, more consistent attention to its safety oversight 
programs. As our reports to FAA and to this body including our 
testimony last year in the Southwest hearing have indicated 
with the ATOS program, while the risk-based oversight approach 
to safety is highly recommended and we commend FAA for 
undertaking that effort, its implementation has been 
problematic. Our forthcoming report will show that, in addition 
to Southwest, seven other major carriers have had problems 
completing their required safety attribute inspections on a 5-
year cycle as required by ATOS regulations.
    Regionals were recently brought into the ATOS program. Our 
discussions with FAA inspectors responsible for implementing 
ATOS at the regionals show that they are struggling with it.
    It seems to them that ATOS has been designed to foster 
safety or account for safety programs in the majors but seems 
to have less applicability to the regionals. In May, reported 
on ASAP, sir, a voluntary disclosure reporting program made 
available for aviation industry employees so that they can 
report safety problems without fear of administrative or 
disciplinary action by their employers or FAA.
    The majors have told us that ASAP is a key element of their 
safety efforts.
    We reported that ASAP is a missed opportunity for FAA 
because it is not accumulating and analyzing the data from ASAP 
for itself with respect to regionals, we have found that 37 
percent of the larger regional carriers do not participate in 
ASAP. If it is a valuable program for the majors, we think it 
might also be a valuable program for the regionals. We 
understand it is a voluntary program for carriers, but perhaps 
with greater FAA attention and accommodation more regionals 
might be persuaded to join.
    Risk-based oversight, sir. With regard to repair stations, 
we have testified repeatedly in this Committee and also over in 
the Senate that FAA's implementation of its new risk-based 
oversight system when it comes to outsourced maintenance 
remains ineffective. In order to have risk-based oversight, you 
need to know where the risk is so you can target your scarce 
inspector resources. In order to do that, you have to acquire 
data. FAA has been unable to date to devise a mechanism that 
will induce the carriers to provide data on what maintenance 
has been conducted, how much, and where it has been performed 
so that FAA can follow up.
    In addition, sir, and in closing, I would commend FAA to 
look carefully to the outstanding NTSB recommendations, all of 
which will provide a further roadmap in order to achieve the 
goal of one level of safety.
    Mr. Costello. Thank you.
    Administrator Babbitt, I was pleased when the President 
selected an Administrator who was a commercial pilot, who has 
testified before this Subcommittee, who has worked with the 
Congress on many issues in the past, who has knowledge of many 
of the issues that we are trying to address here in this 
hearing. However, you are taking over an agency that has a 
history of becoming more of a bureaucracy than an agency that 
performs well and responds well to demands of the Congress and 
the public. So you have a big job ahead of you.
    I know that Secretary LaHood and you announced this 
initiative and that you will be meeting with the regionals and 
I assume the majors as well. Tell us about what you hope to 
accomplish and tell us how you intend to move forward after the 
meeting.
    Mr. Babbitt. Yes, sir.
    Mr. Chairman, the purpose here--and let me echo a statement 
that the Inspector General made: I concur completely with his 
observation that we have one standard of safety; and we do, in 
fact, have one standard of safety. What we are seeing, however, 
and this tragic accident has put a pretty bright light on the 
fact that we don't have an equivalent level of safety.
    We find that some of the carriers are doing a remarkably 
good job and should be commended for operating well above the 
bar, well above the minimums required. We know, for example, 
that one of our major carriers has it as a policy that anyone 
that provides service to them via a capacity purchase agreement 
or other commercial arrangement, they require them within a 
given period of time, that they must have a FOQA program. They 
must have an ASAP program. They must have a mentoring program.
    So the purpose of us bringing these folks together next 
week is twofold. Number one, let us get down, sit in a room, 
and be very candid about what are those best practices, what 
are people doing that is above and beyond and superlative to 
what is required by the statutes and by the regulations. And 
let us learn what those best practices are; and then, 
secondarily, can we implement those quickly? And I intend to 
use the bully pulpit of this job to the extent that I can to 
bring people into compliance, which has to be voluntary at this 
point.
    But my motivation is that by the time the NTSB finishes its 
good work--and it will be good work--We will learn from it. But 
that is 6 months from now. And if I acted the morning they gave 
me the recommendations, I am 6 months from promulgating a 
regulation I can put in force. That is a year from now, and 
that is too long.
    So what I would like to do is take the knowledge that we 
have already learned from their preliminary investigation, take 
the knowledge from the industry. People want to do this right. 
This industry, I marvel at how well it does try to perform. Let 
us gather that best information. Let us provide mentoring 
programs.
    I can tell you from my own experience as a new pilot, my 
first trip--I never flew in an airplane where I didn't sit in 
the right seat with someone who had at least 10 years of 
experience. That was a wonderful finishing touch to my primary 
education as a pilot. What I really learned was in line 
operation from senior captains, people who mentored me. And 
that is the way the process works.
    We have to question how much mentoring is going on, how 
much professional standards exist when a carrier expands very 
rapidly. And we can't critique them for it. It is a reality. 
You get a new contract, you buy five new airplanes, guess what? 
You hire 50 new pilots.
    How do we mentor them? Maybe we need to look to the major 
carriers and let them share that senior experience with these 
younger pilots, build that professionalism in and move forward. 
That is our goal in the short term.
    Mr. Costello. What concerns me and I think concerns a lot 
of people in this room today is the voluntary versus mandatory. 
And I understand what you are talking about, rule making, but I 
believe we need to look at some of these issues and mandate 
them through legislation. And I hope you will work with us on 
that.
    We intend to move forward to address some of these issues. 
I mentioned earlier in my opening statement that I intend to 
look at legislation. Mr. Mica indicated he would like to do it 
in a bipartisan way. So we are going to work together, Mr. 
Petri and I and Members of this Subcommittee.
    My experience has been too often when you leave it up to 
the airlines or you leave it up to many agencies that it 
doesn't get done if it is voluntary, if there are no penalties, 
if there is no mandate. So that is something that we will be 
looking at, and we will be looking to take your recommendations 
as well as Mr. Scovel and Mr. Rosenker.
    One final question----
    Mr. Oberstar. Mr. Chairman, before you leave that point, 
may I interject a thought?
    Mr. Costello. Please.
    Mr. Oberstar. From that very chair, at that table, a dozen 
plus years ago, maybe 15, 18 years ago, Don Engen, then 
Administrator of FAA, had a hearing that we conducted on 
closing of overwing exits on 747 aircraft which was happening 
unknown to the Administrator because of the then stovepiping of 
the regional offices of FAA.
    Don Engen, after hearing the testimony of flight attendants 
who had been engaged in rescue efforts on 747 where the only 
surviving exit was the overwing exit, said in his very opening 
remarks, Mr. Chairman, I have sent a message to the airlines 
and to Boeing now. I can't order them to do it. To do so will 
take rule making, will take weeks, but I have sent a 
handwritten note to them right from this table to stop the 
process now.
    That is the kind of decisiveness--you mentioned that you 
were going to do this. You are not going to wait for the rule 
making. And you said bully pulpit. You have more than a bully 
pulpit. You have power. The airlines know they will go against 
you only at their peril, and we are here to support that 
initiative, and we expect you to take that kind of leadership.
    Mr. Babbitt. I appreciate both your confidence and your 
support. Thank you, sir.
    Mr. Costello. Final question, Mr. Babbitt. We have other 
Members who want to ask questions, and I will come back 
hopefully in a second round.
    You have heard mentioned earlier that the NTSB 
recommendations as they come to the FAA, there is a report that 
is supposed to come to the Congress. It is overdue. It was due 
in February of this year, and we are now in June. I would ask 
you to go back in to make certain that that happens, to get it 
done, and get that report to us.
    Finally, tell us--you had indicated that you were setting 
up a procedure to look at all of the NTSB recommendations and 
to respond to them. Tell us about the procedure that you intend 
to implement.
    Mr. Babbitt. Yes, sir.
    First, at the risk of ratting out my boss, that is a DOT 
report I believe you are referring to. We have turned over our 
portion of that in a timely fashion. But I will look into that, 
and I understand why. I think there are other modes that have 
to report into that.
    With regard to the NTSB recommendations, I have done a sort 
of a quick background research, and I will bring you up to date 
with that.
    Let me repeat what I put forward in my confirmation hearing 
and what I have announced in hearings in another body. It is 
fairly straightforward, and I hope it is fairly simple and 
helpful. And that is the NTSB does great work, and they 
investigate, and they do the full range of their investigation. 
We should take those--and I intend to take those--
recommendations very seriously.
    And what I have said and will fulfill is we will act upon 
those recommendations in one of three ways.
    We will adopt them as written as soon as practically 
possible, number one. There may be occasions where we have 
another regulation in place or we might have some reason to 
suggest modification to it. We will adopt it as modified and 
notify you what modifications we made to the recommendation. 
And if for any reason we were not to adopt one of their 
suggestions, I will advise you why we didn't adopt that 
regulation and the rationale behind it, in concert and 
coordination with the NTSB.
    Let me just recap for you the results. We have indicated, I 
think, that there are approximately 450 recommendations. That 
sounds like an astounding number. It doesn't sound quite so 
astounding when you realize that we have adopted almost 5,000 
of the ones they have recommended; and of those 437, a number 
of them are general aviation related. But when we get all 
through boiling it down, many of them are in regulatory format 
now. They are working their way through the process of NPRMs. A 
number of them we have gone back to the NTSB and working in 
coordination with them.
    And I would note for the record that in my first week and 
before this hearing was even scheduled I reached out to both of 
these gentlemen to better coordinate and ask for meetings. It 
is my goal to work closely with them. They are valuable sources 
of information, as well as the Subcommittee's staff and team.
    So I am looking for input from all sources. But when we get 
all through boiling this down, there is about 130 left. And, 
again, I want to know why didn't we adopt them; and I will give 
you a rationale why we did not.
    Mr. Costello. The Chair thanks you and now recognizes the 
Ranking Member of the Subcommittee, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    As you consider all these suggestions--and I assume some 
are from the top down and some are from the bottom up and some 
are from each side, probably--I wondered if I could just--it 
would help me to understand how you go through the process a 
little bit if I could extract from a letter of a constituent 
and ask you to respond, if anyone on the panel who could care 
to, to this particular constituent's suggestions for some 
changes.
    I am a captain based at Reagan National in Washington, 
D.C.--but the person lives in Wisconsin--I fly a 50-passenger 
regional jet. I am a 30-year-old pilot, husband, and father of 
one. I am a professionally experienced pilot intent on spending 
my career flying airplanes.
    I have a few concerns about the FAA regulations governing 
rest and duty times for airline pilots, specifically regional 
airline pilots. I have suggestions for you.
    Duty time needs to change from 16 hours for a regional 
airline pilot to 12 hours. This change would force the airlines 
to schedule pilots to fly either during the morning or evening. 
This will help combat fatigue, which I experience every week. I 
work out at my hotels, and I pay $2,700 a year for a crash pad 
in Crystal City to ensure proper rest for myself.
    Even with all my precautions, I cannot keep up with the 
continually degrading schedules. When you are in the airplane 
for 14 hours a day, you can't help but get tired toward the end 
of the day. The 30 hours in 7 days need to change to 30 hours 
in 10 days.
    During the past 11 days, I spent one night at home and flew 
34 hours. This may not seem like a lot of flying, but flying on 
the east coast is very demanding, the responsibility to ensure 
safe travel of 50 people into the world's busiest airports. I 
can't see myself being able to do this job for very long, given 
my current workload.
    Regional airline pilots should be restricted to six legs of 
flying a day. At present, we are limited to 8 hours scheduled 
flying, but we are not limited to how many times we fly. 
Limiting the number of legs a day will increase safety, 
decrease fatigue and stress. It is very hard to focus after six 
legs of flying in a day.
    I also wish we could force airlines to build commutable 
schedules, but that is a pipe dream.
    Do you have any reaction to his two suggestions about 
taking into consideration legs as well as hours and limiting 
the time to 12 instead of 16 hours?
    Mr. Babbitt. I will start off and try to address some of 
the points made.
    One of the things that I consider a top priority--having 
sat here and testified before the good Chairman Oberstar a 
number of years ago on this very issue-- one of priorities that 
I have is to address the flight time/duty time issue. I think 
one of the difficulties that your constituent has pointed out 
is the fact that he has selected an arbitrary number.
    I think one of the things that we are learning--we are 
learning it from NTSB, we are learning it from the Inspector 
General, we are learning it from NASA--we have science today to 
help us with flight time/duty time calculations; and I think we 
need to really look at this in the light of science.
    There is a big difference between an arbitrary 12 or 14 or 
whatever the number is, 16 hours. Let us use 14. If you and I 
went to work together at 7:00 in the morning, we would be tired 
at 9:00 at night, but we would be okay. But if we went to work 
at 9:00 tonight, at 11:00 tomorrow morning I wouldn't want to 
drive in a car with you, much less fly in an airplane. So there 
is a big difference between what 12 or what 14 hours are we 
measuring.
    There is also a difference when pilots fly. We have rules 
where you can go beyond with supplemental crews long-haul 
flights.
    And your constituent is exactly correct and I concur with 
the idea that multiple landings--it is one thing to fly one 8-
hour leg from here to Paris; it is another thing to fly 7 hours 
and make 14 stops and never leave the State of Florida. And I 
have done that.
    So I know the difference in measuring arbitrary numbers. 
And I think, as much as I respect what he is trying to achieve, 
I think we really should bring science and use the best 
knowledge and create rules that keep people from being 
fatigued.
    The FAA did, I think, a very credible job of trying to 
address this by having a fatigue seminar. And I think we should 
go the next step now. Let us take what we have learned in those 
seminars and let us apply it to proper regulations that will 
help people, help them become aware of when they are fatigued. 
That is another leg to it.
    Thirty in seven versus thirty in ten, I put it in the same 
box. One 30 hours, that is Detroit to Narita. Those are two 
long legs, two landings. That is not the same as 30 hours in 
the Northeast, shooting approaches to 200 feet in snow. So, 
again, we need to measure what we are doing and apply the 
proper parameters for the proper conditions.
    Six-leg limit. I think when we looked at flight time/duty 
time a number of years ago, that was absolutely one of the 
considerations where you might have--you can say it is okay to 
fly 10 hours a day with one leg. But if you begin to have 
multiple legs, maybe you then reduce the cap. And I think he is 
probably on target there. I am just not sure what the limits 
should be at this point.
    Mr. Rosenker. If I could add to Administrator Babbitt's 
position, he is exactly on target. We believe that fatigue is a 
most insidious condition. Many people are unaware they have 
this condition; that is the frightening aspect. They make poor 
judgments which many times results in accidents.
    Back in 1995, I believe the FAA attempted to make some 
changes through an NPRM. It never came to fulfillment.
    The reality is that it has been about 50 years since the 
hours of service has truly been examined. The aviation industry 
has changed significantly in 50 years. The kinds of aircraft we 
fly and the kinds of training we get, distances we travel, they 
are different than they were 50 years ago.
    So it is time to make changes, and I look forward to 
working closely with the Administrator, and I applaud him on 
his work and his quick action to improve the industry. We 
continue to talk about it; we must never, ever begin to 
segregate the regionals from the majors. It is the entire 121 
industry that we are dealing with, and we don't make 
recommendations to segments of the industry. Virtually all of 
our recommendations go to the industry as a whole. We attempt 
to ensure that the standard for the entire industry is 
maintained at the safest level possible. We have a safe 
industry today, and our objective is to make it even safer.
    Mr. Costello. The Chair thanks you, Mr. Petri; and I will 
recognize the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Administrator Babbitt, ever hear the term "pilot pushing"?
    Mr. Babbitt. Yes, sir.
    Mr. DeFazio. Do you recall or have you reviewed your 1992 
testimony regarding intimidation, punitive firing, disciplinary 
action by airlines when pilots reported fatigue?
    Mr. Babbitt. I haven't reviewed my testimony, but I have a 
recollection of it, sir.
    Mr. DeFazio. You have the recollection. You said you could 
bring in an amazing parade of people to testify that this went 
on in the industry.
    Mr. Babbitt. Yes, sir.
    Mr. DeFazio. But then you said here, people want to do the 
right thing. I guess I have trouble reconciling pilot pushing, 
intimidation, punitive firing, discipline for pilots who are 
trying to follow the law and report themselves fatigued and 
people want to do the right thing.
    I would say there are some in the industry who want to do 
the right thing; and our current rules, unfortunately, go to 
the lowest common denominator. Good old Frank Lorenzo dragged 
down a lot of the industry. You can't compete with people like 
that, because they are at the bottom of the barrel.
    We need to have a uniform higher standard. I just can't 
believe we still have a standard of 250 hours minimum 
qualification for a first officer when a nail technician takes 
600 hours in Oregon. There is something wrong there. And if the 
FAA said, no, we are going to make it 750 or whatever would be 
appropriate, then people can still operate above that, and 
there would be some that would do that or who are more 
attractive employers or who pay better, but at least you 
wouldn't have the bottom-of-the-barrel operators taking the 
people with 250 hours and paying them just absurdly low wages, 
so bad that they have to live with their mother, and then stick 
them up there in difficult conditions.
    Can't we consider those sorts of things? I didn't see it in 
the list of the NTSB's recommendations. I don't know if it has 
been recommended to establish a higher initial bar.
    Mr. Babbitt. Let me, if I may, address two issues.
    You raised, first, the pushing. And I would say we have a 
number of carriers who do that, and the problem is the 
knowledge level of some of the new pilots.
    I can tell you right now a senior pilot in a major carrier, 
if he was fatigued, he would simply say to the company, listen, 
we have been on duty 10 hours. It is the wrong 10. We are all 
tired. We are going to the hotel. And nobody would blink. But 
you take a pilot who has been 3 months with a brand new 
carrier, not even covered by any representation, has no----
    Mr. DeFazio. That is one of the keys which you pointed to 
in 1992, if they don't have protection.
    Mr. Babbitt. That is correct. And they have no whistle-
blower protection. They worked very hard to get this job; and 
they are not about to say, oh, gee, I am a little tired today. 
I am not going to fly. They may be exhausted, but they are 
reluctant, and that is an area we all have to focus on.
    Second, the quality in the 250 hours, if I could, let me 
just politely suggest that there may be a difference. Two 
hundred and fifty hours in the airplane has also been matched 
by hundreds of hours of ground school training, simulators, all 
of that type of stuff. We are not talking about 8 hours in a 
classroom.
    Mr. DeFazio. But some--and we had Ms. Slaughter reference 
one particular outfit that does training in Florida and pushing 
people through pretty quickly. The quality of that time varies 
tremendously. And it just seems to me--and some of the regional 
airlines require considerably more than 250 hours for hiring, 
no matter how much ground school people have had. And I am just 
suggesting that is something additionally that needs to be 
reviewed.
    Did NTSB have any----
    Mr. Rosenker. Mr. DeFazio, I think you are making an 
excellent point. We don't know yet if 250 hours is the 
appropriate number. It may well be that something will come 
from the Colgan accident which may involve a re-examination of 
minimum requirements. At this point, we have not made any 
recommendations addressing that issue.
    Another point that I would like to make is that hours don't 
always ensure pilot proficiency. Many times at the Board we 
have investigated terrible accidents that have been made by 
high-hour pilots-- those with 12,000 to 15,000 hours-- where 
the pilot has just made an incredibly amateurish mistake--for a 
host of reasons.
    So, we cannot necessarily equate number of hours flown with 
high levels of proficiency and skill. We would always want to 
take a look at the programs they are going through, the 
continual proficiency checks that they must pass before we can 
say that these pilots are highly qualified.
    Mr. DeFazio. I appreciate that.
    You did point out in your testimony on the subject of 
fatigue that Colgan had changed their handbook to say--previous 
editions said, flight crew members should not attempt to 
commute to their base on the same day they are scheduled to 
work, but their current edition at the time of this accident 
said, a commuting pilot is expected to report for duty in a 
timely manner.
    And I would note that the first officer took the red-eye 
from Seattle. I have taken that flight. By 6 or 7 o'clock the 
next night, I am not at my best just making judgments about 
editing things in the office or something else, let alone 
flying a plane in icy conditions. I would say it is a fairly 
similar circumstance, and I have done a lot of this.
    I am just trying to point out that some operators are going 
to take the flexibility that they are given and use it to dive 
for the bottom. Then they can offer a lower cost product. And 
the other people who are trying to do a better job and say you 
should never, ever take the red-eye, come here and fly the same 
day, spend the day in the crew lounge and fly the same day--If 
some other operator is doing that, you know, they are probably 
going to have to pay them more than $23,000 a year so they 
don't have to live with their mother in Seattle and fly across 
the country.
    I mean, I am trying to point out that we need to 
establish--I think it is the FAA's duty to establish a higher 
bar, and then no one is at a competitive disadvantage. And I 
don't think you will find a single person who would be 
unwilling to pay an extra 2 or 5 bucks for a ticket because we 
raised the bar and Colgan Air isn't out there dragging 
everybody down or somebody else like them--not just to pick on 
them. Our good old Frank Lorenzo and everybody else that has 
tried to do that in the industry.
    That is all. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the Ranking Member of the Full Committee, Mr. Mica.
    Mr. Mica. Welcome, Mr. Babbitt. I am so pleased that we do 
have a confirmed administrator and one with your high 
credentials. I guess we are going to lose Mr. Rosenker as the 
Chair. So I compliment you on the great job you have done at 
NTSB and will continue to do. But we appreciate your past 
service and your beginning service, Mr. Babbitt.
    A question for both of you. Well, actually, it will include 
our representative IG panelist. Are our regional airlines safe, 
Mr. Babbitt?
    Mr. Babbitt. Yes, they are.
    Mr. Mica. Thank you.
    Mr. Rosenker?
    Mr. Rosenker. I would agree with the administrator. They 
are, sir.
    Mr. Mica. Mr. Scovel?
    Mr. Scovel. Mr. Mica, I have no evidence that they are 
unsafe.
    Mr. Mica. Thank you.
    Well, I think that is important. I guess 25 percent of the 
passengers I guess--or flights rather--flights, not 
passengers--are on regional airlines. We need to reassure the 
public.
    And it is my understanding you testified at the beginning--
I heard your remarks, Mr. Babbitt--that we had the same 
standards in place for both our large commercial aircraft as 
also for our regional carrier; is that correct?
    Mr. Babbitt. Yes, sir. They all operate under Part 121, and 
they meet those standards.
    The point I was making was----
    Mr. Mica. I think we have to reassure the public. And, of 
course, as I point out to folks, that today more than 100 
people will die in automobile accidents and every day, 365 days 
a year. So while we have had some tragedies, we have an 
incredible record with our large commercial aircraft 
domestically.
    And I have a quick question about the problem that we may 
have with the Airbus in a second. But, Mr. Rosenker, you 
recommended--or NTSB recommended I think more than 3 years 
ago--I have got a copy of the recommendation--that we actually 
open up some of the records beyond 5 years of the performance. 
I was shocked to hear that, again, that some of the mechanism 
that I thought Mr. DeFazio and I put in place some years ago to 
continue to call those recommendations to the attention of both 
Department of Transportation, FAA and also Congress--because, 
ultimately, we are responsible if an agency isn't acting. Do I 
need to change what we put in law? What is the problem with not 
getting your recommendations acted upon, Mr. Rosenker?
    Mr. Rosenker. Sir, I wish I had a silver bullet to be able 
to tell you that, if we did this, all of the NTSB 
recommendations would be enacted.
    Mr. Mica. But I have your recommendation here. I have the 
number of flights that--commuter flights that we have lost with 
fatalities. Obviously, there is some disconnect. Because I said 
earlier, I have commuter--an unfortunate number of fatal 
crashes. You have a recommendation. Four of the six 
recommendations related to pilot performance. And I can't get a 
simple recommendation from you into a rule or a law.
    Mr. Rosenker. If we are talking about some open recs that 
we have related to the Colgan Buffalo accident, I can share 
with you approximately where we are. The stick pusher 
recommendation and the upset training are going to be handled 
and implemented when the NPRM is fully implemented. It is being 
covered by the January NPRM.
    Mr. Mica. What about the records recommendations?
    Mr. Rosenker. We are talking about the records. That has 
been on our recommendation list for a number of years.
    Mr. Mica. 2005?
    Mr. Rosenker. 2005, yes, sir.
    Mr. Mica. But we still don't have implementation. What is--
--
    Mr. Rosenker. There are some regulatory concerns, and there 
has----
    Mr. Mica. There is an also a privacy concern I know, too, 
as far as pilot certification issues.
    But I think, again, when we are putting someone behind the 
yoke or in control of an aircraft, the airlines should be able 
to access--the representative from New York, Ms. Slaughter, 
went beyond what I had recommended, that this should be on line 
or public information. But at least the person hiring should 
have access to information about performance and their ability 
to pass certification tests.
    Mr. Rosenker. We agree with you, Mr. Mica; and, as I say, 
we put this forth in 2005. An excellent first step is what the 
Congress did in 1996 when it enacted the Pilot Records 
Improvement Act (PRIA). The continuation where we find we can 
get additional information which is being stored at the FAA, 
that information is extremely valuable. This deals with pass/
fail, the kinds of certifications that the candidate has. This 
would be an extremely valuable source of information when an 
airline is attempting to evaluate and decide which one of the 
candidates they should hire. Should they take one who has had 
five failures, or should they take one who seems to be 
extremely proficient in going through their instruction 
programs? So we have made that recommendation.
    In reality, an airline can get the material by having the 
pilot sign a waiver, but it should be a requirement. It should 
be made significantly easier to obtain this information.
    Mr. Mica. But it hasn't been implemented.
    Mr. Babbitt.
    Mr. Babbitt. If I may, a little background. I am familiar 
with the Pilot Records Act, and that Act was born from the lack 
of information that one carrier hired a pilot not knowing that 
he had multiple failures in training at another carrier. So the 
focus was on the entry pilot's activities. And they said, you 
know what? We should know what he did at the last carrier.
    I think what this accident has shone some fairly bright 
light on is excluded in that, as it was in the subject of the 
discussion at the time, was the fact that the FAA maintains 
another database. We maintain all the records of every rating, 
all the writtens and so forth. Those, too, are maintained.
    But the Pilot Records Act, my suggestion would be that we 
probably need to modify that rule statutorily so that you get 
both. There are privacy concerns that come into that issue, and 
I think we do need to look at that. The FAA, of course, has the 
oversight authority. Once you make that regulation change, then 
it is the obligation of the FAA to ensure that those 
regulations are being complied with. But the oversight is that 
we didn't ask for enough when we wrote the rule.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the gentleman from Ohio, Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Costello; and thank you to the 
panel coming here today.
    It is becoming clear that the 50 deaths that occurred that 
night in February were not only tragic but completely 
avoidable. And I want to focus on three things, Mr. Chairman. I 
request that the letter that I submitted to Colgan Air and 
their response and my remarks be submitted to the record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Boccieri. Three things I want to focus on. With 15 
years of training with the United States Air Force and 
thousands of hours as a C-130 pilot, I am baffled by the 
response and I am baffled by the lack of attentiveness to the 
recommendations that have been made from the NTSB to the FAA.
    Number one, when I buy a ticket from an airline--I buy a 
ticket from Continental, Delta, whomever--I am buying a ticket 
with them because I like their training records, their 
statistics, and I like and respect the fact that they have a 
certain level of expectations with respect to their pilots. Yet 
the co-chair agreements that we have right now in practice are 
for purely marketing reasons, and the FAA even acknowledges in 
its own admission that it has nothing to do with safety. In 
fact, they said the co-chair agreements reported that safety 
was not treated as a major factor in the Department's co-chair 
approval process and the FAA did not take an active role in 
approval or oversight of these agreements.
    That is a shame, and it is tragic.
    Number two, the regional airlines do not have the same 
standards as the major airlines. The FAA likes to talk about we 
train like we fly and we fly like we train. But yet when I dug 
down and found the root of why this aircraft commander, this 
captain did not apply the appropriate procedures to recover 
from this stall--it was a full stall, an approach to a stall 
and a full stall--he did not apply the appropriate procedures.
    And when I wrote to Colgan Air, they suggested that every 
pilot receives complete ground training on the Q-400 stall 
system which includes a stick shaker, a stick pusher. The 
training includes the recognition and recovery from near stall, 
an indication of a stall, the stick shaker for the push-off.
    Yet the NTSB said when they interviewed check pilots, 
interviewed the demonstration or instruction of the aircraft 
pusher system, it is not part of the training syllabus for 
initial or recurrent training by Colgan. These pilots did not 
know how to recover from a full stall. Completely, completely 
avoidable.
    And, in fact, the NTSB said that, in their training 
requirements, that the FAA should have upset recovery training 
aides; and the NTSB advised that training and stall recovery 
should go beyond the approach to a stall to include training 
recovery from a full stall condition in addition to the cases 
where the flight data are available, weather flight test 
incidents, that these data should be used to model stall 
behavior and facilitate training beyond the initial stall 
warning. Yet, since 1974, the FAA has not enacted stall 
recovery, stall training, and stall recovery requirements for a 
series of accidents that happened back in the 1970s.
    Unacceptable. As a military pilot, we would not be able to 
fly. We would not be able to fly if we were not allowed to 
recover--or not able to recover from a full stall, approach to 
a stall and an unusual attitude recovery.
    And, in fact, the major airlines--I went to reserve duty 
this weekend, and I asked a couple of my buddies who fly for 
the major airlines, and they suggested, oh, we go into all 
kinds of unusual attitudes, unusual recoveries, full stall 
recognitions, and they have to recognize the performance and 
structural integrity of their aircraft when they recover from 
those procedures.
    Yet these have not been enacted.
    The third item, why are we permitting our pilots in 
commercial aviation to fly into severe icing? As an airlift 
pilot of the United States Air Force, the United States Air 
Force does not allow me to fly into severe icing. Yet this crew 
flew into what is arguably considered severe icing, freezing 
drizzle, freezing rain.
    Yet the training manual says that do not--for Colgan Air--
suggests--and this is from the NTSB safety report--do not 
attempt to take off or make an approach to land in freezing 
rain, sleet or drizzle, wet snow conditions that are beyond the 
performance limits of the aircraft.
    So it is clear that as long as performance indicators of 
what they do when they crunch their numbers in their charts, 
before they land based on their weight and atmospheric 
conditions, they may make a mistake or they may not, but yet 
they are permitted to fly into freezing rain and severe icing. 
That is unacceptable.
    I think that this panel not only has an obligation but a 
duty to force the FAA to adhere to every one of the 
recommendations that they make.
    In particular, for the record, I want to cite Alpha-96-120, 
the advisory of the NTSB that talks about unusual attitudes and 
recoveries, with respect to this still being an open and 
unacceptable response by the FAA as it pertains to Part 121. I 
hope we get down to the brass knuckles with respect to changing 
this. Because we have families that are sitting over there 
right now, right now grieving the loss of their loved one 
because we had inadequate training.
    Now, knowing that Colgan Air pilots were not able or 
trained to recover from a complete stall in an unusual 
attitude, I ask you, Mr. Rosenker, would you fly on one of 
these regional airlines if you knew the pilot was not able to 
recover from a full stall or not trained to recover from a full 
stall?
    Mr. Rosenker. In fairness, Congressman, if I knew that, I 
wouldn't.
    Mr. Boccieri. To Mr. Babbitt, would you fly on a regional 
airline if you knew that the pilots were not adequately trained 
to recover from a fall stall?
    Mr. Babbitt. I not only wouldn't fly, I would ground it.
    Mr. Boccieri. Thank you, Mr. Chairman. I think this has 
brought to light some very serious issues that we need to bring 
to the attention of not only this Committee but the entire 
public that flies on these regional airlines. Thank you.
    Mr. Costello. I thank the gentleman for his thoughtful 
comments and questions and look forward to working with you as 
well as we go forward with legislation to address some of these 
issues.
    Mr. Oberstar. Mr. Chairman, may I just observe what a 
storehouse of knowledge we just heard from the gentleman from 
Ohio and his experience in military aircraft and icing. It was 
a textbook case. Thank you for your contribution. It is 
invaluable.
    Mr. Costello. The Chair now recognizes the gentlelady from 
West Virginia, Mrs. Capito.
    Mrs. Capito. Thank you, Mr. Chairman and Ranking Member 
Petri, for holding this very important hearing.
    I would like to ask--I will be submitting my opening 
statement for the record, but I do want to thank, as we have--
several of us have met several of the families who are affected 
by this deep tragedy; and I want to thank them for their 
courage, for their knowledge and for them helping to enlighten 
a lot of us in I think bringing forth many issues today.
    My question is kind of bouncing a little bit off of what my 
colleague from Ohio was talking about. Originally, when the 
original accident--this accident occurred, it was referred to 
as the Continental connection flight. Very quickly, it became 
Colgan Air. And in the NTSB report I think it is referred to 
almost unanimously or always as Colgan Air but maybe began as 
Continental. And my guess is--and many of us have said this--
that the passengers who buy the tickets think they are buying 
Continental.
    I fly US Air and fly Colgan Air every week. I think--what 
is the responsibility or the relationship between the major 
carrier/contract carrier when it comes to safety? Is it totally 
separate? Because I am kind of hearing conflicting opinions 
here.
    You are saying it is the same safety standard, but then Mr. 
Rosenker wanted to reinforce that we must keep these on the 
same level, which tells me there is a belief that they are not. 
Could you talk about that relationship a little bit?
    Sure. Whoever wants to take it.
    Mr. Babbitt. Both the carriers in this case were operating 
under Part 121 of the Federal regulations. However, there may 
have been--and we are certainly going to await--both some 
findings from the NTSB and the Inspector General who has been 
directed to look into aircraft training, airline training. So 
we are going to look to both of those.
    We are also not going to just simply wait. We are bringing 
in these folks that represent major carriers, regional 
carriers, and the pilots and unions involved in these to better 
understand what are the gaps. Are there gaps, in fact, between 
what is going on at these various carriers? That is what we 
want to look into.
    The standards are there. They are embodied in Part 121. And 
the regulations that guide both of these carriers are clear. 
But what we have seen and I have been referring to here, we are 
finding that some people have raised the bar considerably; and 
if that is the case, then we want to ask if we now have an 
expectation that why isn't everyone raising that bar?
    Mrs. Capito. Just in terms of the resources that are 
available for safety training, whether it is a regional, 
whether it is a major, I am assuming the major has more 
resources available for training. Is that a reasonable 
assumption?
    Mr. Babbitt. Well, I think what you see at major carriers, 
the tenure and longevity of the people that have the safety 
training departments, their experience over the years has 
allowed them to build on a base that is more robust. If a 
carrier is newer, comes into being later, they get certified, 
they operate legally, but they don't have the experience. There 
are no 25-year pilots at some of these carriers.
    And what we are looking to do when we bring everybody 
together is, is there a way to "cross pollinate"? For lack of a 
better term? Can't we take that experience and lessons learned 
in other cases and let them use it, give them the benefit of 
that knowledge and expose them to it? That is our goal now.
    Then we will have, optimally, 6 months to a year of 
experience of seeing this; and, at that time, we fully expect 
to get some additional recommendations from the NTSB. We will 
already have some operating experience with trying to do just 
those things. I indicated in earlier comments that we know full 
well that some of these carriers demand that the regional 
partners have some of these safety attributes that they have 
themselves.
    Mrs. Capito. I think people flying assume that is what is 
actually occurring, and I think that is one of the astounding 
things that we have discovered here today.
    I didn't mean to interrupt you. I want to ask one other 
question, because my time is getting short.
    When you have a mechanical failure on a plane or a 
mechanical issue with a plane, it is mandatory that it is 
upgraded, recalled, stopped, thank goodness. But it is my 
understanding that if there are some pilots that need 
additional training or they have had issues with falling 
short--we have already heard they failed some of the tests--
that there is no mandatory requirement that they go back to 
remedial training. It is just suggested.
    If that is the case, we have got to change that. I think 
that is no less important, whether the plane can fly or whether 
the pilot can fly under optimal conditions. I don't know if you 
have a response to that.
    Mr. Rosenker, I cut you off on the first question.
    Mr. Rosenker. I will let the Administrator answer that 
question, and then I will follow up with the original question.
    Mr. Babbitt. There are a number of elements involved in 
training. A pilot may take--and remember that these are 
probably the most tested people in the world-- they take two 
physicals a year and three rides. One of them is a proficiency 
check, one of them is a check ride, and then they get a random 
line check. Three times a year, their performance is observed.
    In the proficiency training, if there is a pilot, and his 
training pilot said, look, you can do this particular element 
better, let us have a little more training for you tomorrow, 
that pilot can't fly. That pilot is now grounded.
    Mrs. Capito. Is that mandatory grounding?
    Mr. Babbitt. Yes. The pilot has not passed his check ride, 
so he is grounded.
    Mrs. Capito. So the pilot that we have been talking about, 
if he didn't pass his check ride, he was unable to fly again 
until he passed the test?
    Mr. Babbitt. That is correct. So we would go back and 
revisit that element, give him additional training to make them 
proficient. When that proficiency is demonstrated, then he 
passes the check riding and he is okay. It is just like fixing 
the part.
    I remind people that this is a complex profession. I also 
remind people that Tiger Woods takes golf lessons every week.
    Pilots get training all the time. We learn things all the 
time. We have better techniques to teach them. We have better 
equipment to teach them in. The fidelity of a simulator today 
is vastly improved, and I have seen it grow over time.
    As we learn these things, we apply them. Sometimes there is 
a gap. Sometimes it takes our good friends at the NTSB to point 
that gap out. And we say, wait a minute: we should change the 
regulation and take it up to the next level of safety.
    Mr. Rosenker. If I could follow up to the Congresswoman's 
question about the relationship between the major and the 
regional carriers. It defies logic, at least the way I look at 
it, that when you put a brand, when you put a logo, when you 
paint the aircraft with your colors, that all you would be 
interested in is the financial aspects of when the ticket money 
is being deposited in the bank. I believe we are going to be 
uncovering a good deal of information concerning relationships 
like this through our investigation.
    What is important to note is that the minimum standards are 
there. Are the minimum standards adequate? Should we be raising 
those standards? And can we look at the best practices? These 
are some of the aspects I believe the Administrator and the 
Secretary are going to consider next week.
    Again, it is going to take time for us the NTSB to finish 
this investigation. We look forward to being completed in about 
the first quarter. But we believe there will be a good number 
of recommendations coming from it that, and if implemented by 
our colleagues at the FAA, they will do a great deal to prevent 
this kind of accident from happening again.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman, and thank you, 
Ranking Member Petri, for holding today's hearing and your 
continued leadership in working to ensure safety and the 
integrity of our Nation's air transportation system.
    Administrator Babbitt, I want to welcome you and 
congratulate you. I am looking forward to working with you 
here.
    While so far we have rightfully focused on pilot workforce 
issues, another possible issue in the Colgan Air tragedy may 
have been the weather. I would like to focus on a broader issue 
involving weather and air traffic. Specifically, I want to 
discuss a plan submitted by the National Weather Service to the 
FAA in December. This plan proposes closing the center weather 
service units located within a 20 air route traffic control 
centers in the continental U.S.
    As you know, this plan was developed by the National 
Weather Service in response to the Bush administration's 
request to cut costs at FAA; and it calls for the National 
Weather Service to send the 20 FAA facilities forecast from two 
central units located in Maryland and in Kansas City. So I know 
I am not alone in worrying that, if this plan is implemented, 
air traffic controllers at the air route traffic control 
centers will no longer have the immediate expertise of on-site 
meteorologists to advise them on where route aircraft 
experience difficulties when weather conditions play a critical 
role in that decision. As we have talked about that certainly--
we don't know if that had an impact here, but weather certainly 
was an issue in this crash. So I think clearly we need to 
carefully evaluate this proposal.
    Now, you probably haven't had time to consider the proposal 
in detail. You haven't been in this job for very long yet, but 
I know back in 1996 when you were head of the Airline Pilots 
Association, you strongly opposed eliminating or weakening the 
center weather service units.
    I understand 13 years is a long time and things do change, 
but I would like to know what your thoughts are now that you 
can share on how this proposal will impact redundant safety 
systems and how do you plan to assess performance of the new 
centers? Because I have great concerns--a question about how 
the proposed centralized forecasters can have intimate 
knowledge of local microclimates and air traffic patterns.
    But since we are running short on time here, I know, let me 
also throw this in there and get your response. I think 
probably the most important question here is, if you have any 
doubts about the performance of the proposed system, would you 
be willing to put on hold this development until those concerns 
can be addressed? Because I know that the leadership at the 
Department of Transportation has taken a closer look at the 
Bush administration plans to consolidate FAA engineering 
activities and was wondering if that was also a possibility if 
you did have concerns about this.
    Mr. Babbitt. Sure. I appreciate your recognition of my 
short tenure. I have, in fact, had a little bit of an 
understanding on this. Just a couple of quick observations.
    The local knowledge issue, these meteorologists providing 
information at the centers are no matter where they are, they 
are looking at the weather all over the United States. Flights 
are going everywhere. They don't just stay in that area, number 
one.
    Number two, one of the restraints that we have today is 
most of these are manned for 16 hours a day. That leaves us 
with a third of the day with no meteorologist, and what they do 
today is call into other areas.
    So while I completely respect the point you are making, and 
I certainly will look into it, my understanding is the idea 
that centralizing into a couple of locations for the purpose of 
having redundancy if we had a communication failure or 
something like that, you would always have the other center, 
but you would also get a much more robust, 24-hour-a-day 
availability for meteorology advice and forecasting and so 
forth.
    Mr. Babbitt. I would also note most of the major carriers 
today-- while in the era a long time ago when I was hired, we 
did have meteorologists at every pilot domicile, and you met 
physically with the dispatcher, you met physically with the 
meteorologist before your flight--there was some resistance to 
it, but at the end of the day they did--and I think today every 
major carrier has centralized meteorology. It is more 
efficient, it gives you redundancy, it gives you a broader 
depth.
    So that said, I will certainly look into if you have got 
additional information. I think the Department of Commerce 
actually has that as opposed to the DOT. But it is, again, my 
understanding that the FAA buys those services from the 
Department of Commerce. So we will certainly look into it and 
be respectful. If there is a better way, I am all for it.
    Mr. Lipinski. I appreciate that you keep a close eye on 
this and make sure that we are doing the right thing and are 
ensuring safety. Thank you.
    Mr. Costello. The Chair thanks the gentleman from Illinois.
    Let me inform everyone that we have two votes pending on 
the floor. We have about 5 more minutes left before we have to 
leave to vote. I will recognize the gentlelady from Ohio for 
her questions, and then after her questions we will recess for 
approximately 30 minutes for us to get the two votes out of the 
way, and we will reconvene the hearing at that point.
    The gentlelady from Ohio Mrs. Schmidt is recognized.
    Mrs. Schmidt. Thank you, and thank you, Mr. Chairman, 
because if I appear passionate with this issue, it is because 
in addition to losing Johnathan Perry from Loveland, Ohio, a 
community I grew up in and still live in, the Wolinksys, who 
live on Long Street in New York, spent almost a decade in 
Loveland, went to the same church that I grew up in. And so 
this is really a very personal issue for me.
    And, Mr. Babbitt, I want to ask you a question and then the 
panel one, and I will try to be brief. Chairman--or Ranking 
Member Mica talked a little bit about the issue of privacy and 
also the issue of pilot training and access to that 
information. And it is my understanding that if a pilot fails a 
number of safety tests with one airline and then switches to 
another airline, the new employer does not necessarily know 
that the pilot has failed those tests, and there is no uniform 
database that allows airlines to review the past performance of 
pilots on all safety tests.
    I am wondering how do we make this safer? Would it be 
acceptable and useful and not violate the 1974 right of privacy 
policy that you alluded to on page 7 of your testimony--would 
it be acceptable if we create a safe and secure private 
database, not open to the public, but open to the airline 
industry, so that when a pilot crosses to another industry, 
that they can access that data and see what tests they have 
passed and what tests they have failed, and not just put an 
arbitrary date of 5 years on them, but their lifetime scoring 
so that the airlines can adequately review their performance 
tests?
    Mr. Babbitt. I think your point is a good one. They do--in 
fact, when a pilot applies at another carrier, they can get his 
training records from the carrier.
    Mrs. Schmidt. Is it mandatory, or is it always accessible?
    Mr. Babbitt. They have to. But that is only their training 
records from the previous carrier. That is my understanding.
    Now, the bright light that is being put on here is there is 
no requirement. There is a suggestion and an advisory circular 
from the FAA that you should ask the pilot. And I have asked, 
based on what I have just learned in the last week from the 
NTSB investigation--I have asked counsel at the FAA would it be 
discriminatory? One of my concerns was you are trying to hire 
me as a pilot, and you ask me, may I access your database 
records at the FAA, and I say no. Is that discriminatory for 
you not to hire me? It would certainly raise my eyebrows if I 
were you and I refused to give you access to my records. I 
would want to know why.
    And so I agree that we perhaps need to find a vehicle, A, 
is it legal, and, B, do we have to change a statutory 
requirement to get to those, provided the adequate protections 
for personal information.
    Mrs. Schmidt. Thank you.
    And this is to anyone on the panel that can answer this. 
There has been some talk about the salaries, and some of these 
salaries are at 20-, $23,000. Who sets the salaries for these 
pilots? Is it negotiated by a union? Is it the airline 
industry? How does this pay grade occur? Do you have that level 
of expertise, or do we wait for the next panel?
    Mr. Babbitt. I have a little background in that area.
    Mrs. Schmidt. That is why I kind of looked at you.
    Mr. Babbitt. I sensed that.
    The first year of employment is typically set by the 
carrier. It is not negotiable. The employee is a pilot. He or 
she is at will. They have no protection. They typically are not 
even eligible to belong to a union or be represented. After 
that, usually 1 year, 18 months into their employment, 
somewhere in that range, then they became covered by a 
collectively bargained agreement.
    Mrs. Schmidt. Thank you.
    Mr. Costello. The Chair thanks the gentlelady and announces 
that we will recess until approximately 12:30.
    And let me thank the members of this panel for being here 
this morning to offer their thoughtful testimony. I have other 
questions that I will submit to you in writing and ask that you 
respond.
    Mr. Costello. We look forward to working with you on this 
critical issue as we move forward with legislation. So we thank 
you for testifying.
    This panel is dismissed. We would ask that the second panel 
be at the witness table at approximately 12:30. Thank you.
    [Recess.]
    Mr. Costello. The Subcommittee will come to order.
    The Chair would introduce now the second panel of 
witnesses. First, Mr. John Michael Loftus. Mr. Loftus is 
testifying today on behalf of the families of Continental 
Flight 3407. He is a former pilot with Continental Airlines, 
and, of course, his daughter Madeline, as I mentioned earlier, 
was on Flight 3407.
    Mr. Loftus, again, we offer our condolences to you and to 
the other family members who are here. We appreciate the fact 
that you are willing to testify and to give your perspective 
before our Subcommittee.
    Next, Mr. John Prater, Captain John Prater, who is the 
president of Air Line Pilots Association, International; Mr. 
Roger Cohen, president of the Regional Airline Association; Mr. 
Daniel Morgan, vice president of safety and regulatory 
compliance with Colgan Air; Mr. James May, president and CEO of 
the Air Transport Association; Dr. R. Curtis Graeber, fellow 
with the Flight Safety Foundation; and Dr. Frank Ayers, 
chairman of the flight training department, professor of 
aeronautical science at Embry-Riddle Aeronautical University.
    Gentlemen, thank you all for being here today to testify 
before the Subcommittee. Let me say that your entire written 
statements, your testimony, will be submitted in the record. 
And we would ask you to summarize your testimony so that we 
have an opportunity to ask questions.
    At this time the Chair now recognizes Mr. Loftus.

   TESTIMONY OF JOHN MICHAEL LOFTUS, FAMILIES OF CONTINENTAL 
 FLIGHT 3407, FATHER OF MADELINE LOFTUS/VICTIM OF FLIGHT 3407 
  CRASH, FORMER PILOT WITH CONTINENTAL AIRLINES; CAPTAIN JOHN 
PRATER, PRESIDENT, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL; 
 ROGER COHEN, PRESIDENT, REGIONAL AIRLINE ASSOCIATION; DANIEL 
   MORGAN, VICE PRESIDENT, SAFETY AND REGULATORY COMPLIANCE, 
    COLGAN AIR, INC.; JAMES C. MAY, PRESIDENT AND CEO, AIR 
 TRANSPORT ASSOCIATION; R. CURTIS GRAEBER, Ph.D., FELLOW, THE 
  FLIGHT SAFETY FOUNDATION; AND FRANK AYERS, CHAIRMAN, FLIGHT 
 TRAINING DEPARTMENT, PROFESSOR OF AERONAUTICAL SCIENCE, EMBRY-
                 RIDDLE AERONAUTICAL UNIVERSITY

    Mr. Loftus. Mr. Chairman, Subcommittee Members, thank you 
for the opportunity to speak before your Subcommittee today. My 
name is John Michael Loftus. I am here today on behalf of 
Families of Continental Flight 3407 both as a father and as a 
former pilot with Continental and Continental Express for over 
20 years.
    My daughter Maddy was on board Flight 3407 February 12, 
2009. Madeline was a beautiful 24-year-old woman just starting 
down the pathway of her adult life. She had just finished her 
education and had returned to New Jersey, to home, where she 
had landed an excellent job in an outstanding pharmaceutical 
advertising agency. She was surrounded by family and friends 
who loved her.
    As she boarded Flight 3407, she was so excited about going 
back to Buffalo State College to an alumni hockey game, so 
excited to see her old teammates and friends and to pursue one 
of the loves of her life, hockey. In other words, she was 
poised to begin the rest of her life. But that night on board 
Flight 3407, all her hopes and dreams and plans for the future 
career, love, marriage, motherhood, were brutally extinguished, 
and we are left here sitting today asking why.
    I don't think we can ever make sense of the tragic loss of 
Maddy and the other 49 people on board that flight that night, 
but we can and we must do everything in our power to ensure 
that it never happens again.
    I speak to you not only as a grieving parent, but I also 
bring my aviation background, having been a commercial pilot 
for 26 years and 22 years of flying experience with Continental 
and Continental Express. If.
    I could leave you Members with two things, two thoughts 
today, they would be there is no substitute for experience in 
the air, and the importance of pilot training, especially in 
emergency circumstances, cannot be overstated.
    My experience in the cockpit involved many difficult flying 
conditions. I flew into thunderstorms, low ceiling, dense fog 
and many winter seasons involving icing conditions. The key to 
my success was being able to gain the knowledge by flying with 
other, more experienced pilots who had dealt with these same 
difficult flying conditions longer than I.
    . When I flew for Continental Express as a regional pilot, 
I had the benefit of having the access to the same training and 
pilot resources that the pilots at Continental, our major 
carrier, had. However, as a third tier of regional airlines 
sprung up, I saw the industry devolving into two levels of 
safety, one for the majors and a second for the regionals. 
Small regional carriers like Colgan Air have less resources for 
training. Pilots could not benefit from the existing training 
department, the extensive training department, with decades of 
institutional knowledge.
    These are just a few of the insights that I have gathered 
during my years as a commercial pilot that relate to some of 
the safety issues that have been exposed by the tragedy of 
Flight 3407. More important than just identifying the problems, 
however, our family members implore you to push for solutions.
    First, we need to take an industrywide look at the 
experience requirements in terms of hiring, upgrading and the 
pairing of pilots together in the cockpit. In the case of 
Flight 3407, the fact that the pilot had failed check rides in 
2006 and 2007 while at Colgan, yet still was upgraded to 
captain in 2008, and was paired with a young first officer who 
was uncomfortable with her icing training, reflect the 
improvement that needs to be made in this area.
    Second, we need to revamp the approach to training; more 
importantly the difference of not just what is trained, but how 
it is trained. That is where the wide gap exists between the 
majors and the regionals. Regional pilots typically have less 
experience, fly more legs in a day, and often face more 
difficult low-altitude weather conditions, and yet they are not 
receiving the high level of training their counterparts receive 
at the major carriers.
    So what we need is for the major carriers to play a more 
hands-on role in the design, execution and oversight of the 
training programs utilized by the regional partners. When our 
loved ones bought tickets under the Continental name, that is 
what they were entitled to.
    Finally, we need to require, not just recommend, that all 
regional carriers implement best practice safety initiatives 
that are commonplace among today's major carriers: FOQA, LOSA 
and ASAP. There is no reason for the state-of-the-art safety 
tools not to be made available to the regional pilots.
    Unfortunately, as a veteran of the industry, I have often 
heard it said that most aviation regulations and procedures are 
written in blood. My Maddy and 49 other people who died that 
tragic night in February have given their blood, and now we 
believe they are owed solutions. We are asking you to invest 
time, effort and resources to make the necessary changes in the 
airline industry. You are the only ones who can bring together 
all the stakeholders, the regionals, the majors, the unions, 
the manufacturers, the FAA, and the interests of the flying 
public. You alone can marshal the forces of the government to 
ensure we receive one level of safety that all Americans 
deserve.
    Although some of the voices in the industry may complain 
about the economic costs to safety improvements, we are here to 
tell you that no price tag can match the price that we have 
paid with the loss of our loved ones. It is our responsibility 
to ensure that no other Americans will have to pay this price 
in the future. When you are faced with the tough decisions, 
please think of your son, daughter or loved one flying on a 
turboprop airplane, the last flight of the night in the dead of 
winter in Minnesota, Illinois, Wisconsin, Upstate New York, and 
please ask yourself how much is their life worth?
    I miss my daughter every day. Her mother, brother and 
sister miss her terribly, too. My wish is not to have to see 
another father, mother, husband, wife or child sitting before 
this Committee and asking the same questions. Let us join 
together and commit to solve these problems and these issues 
now. Thank you.
    Mr. Costello. Mr. Loftus, thank you.
    Captain Prater.
    Mr. Prater. Thank you, Chairman Costello. Good afternoon to 
the Committee.
    As Captain Loftus and I go back over 20 years, as 
Congresswoman Schmidt recognized, accidents are personal, and 
they are personal to those of us who fly the airplanes. I, too, 
knew Maddy as she tried to teach me how to ice skate.
    We commend this Committee for calling this hearing and 
looking at the importance of these vital issues. And we look 
forward to participating with the FAA in their call to action 
summit next week to address the issues in much more depth. 
While this summit is a good start, these issues are complex, 
and long-term solutions need to be identified. And we encourage 
the continued attention and participation of this Committee.
    In recent years the major airlines have come to rely 
heavily on code share arrangements with so-called regional 
airlines to connect large, midsized and small cities in the 
U.S., Canada and Mexico to their international hubs. This has 
resulted in the exponential growth in the regional sector of 
the industry.
    Still, the major carriers exert a great deal, total 
economic pressure on the regional airlines to provide their 
service at the lowest possible price. They control ticket 
pricing and schedules and regularly move flying between their 
regional partners. Some major airlines have even begun 
outsourcing their flying to regionals and laying off their own 
pilots, losing decades of experience in the process. These 
experienced pilots cannot afford to work for one of these so-
called regional carriers as a newly hired first officer. As a 
result, many of the smaller regional carriers hire pilots at 
the FAA minimum standards and do not employ adequate screening 
processes during hiring that identify that ideal candidate.
    As was brought out during the NTSB's recent hearing on the 
tragic accident in Buffalo, many pilots who fly for regional 
airlines are not getting adequate training or enough rest. 
Airlines are requiring pilots to work longer days, and more of 
them, each month. Fleet and base changes are forcing pilots to 
decide between commuting or possibly taking a huge pay cut to 
train on new equipment.
    The consequence is the quality of airline pilot careers has 
been greatly diminished, and the severe erosion of benefits and 
quality of life are motivating the experienced pilots to move 
to other professions.
    Current training practices do not take into account the 
drastic change in pilot applicants' experience. Instead, they 
assume that pilots are far more experienced than they may 
actually be. ALPA believes there must be a new focus on 
standardization, and even on some fundamental flying skills. To 
meet this challenge airlines and other training providers must 
develop methodologies to train for that lack of experience and 
to train for judgment.
    Current training practices may also need to be adjusted to 
account for the source and experience level of that new pilot 
entering into initial training at his or her airline. ALPA also 
believes there should be more stringent academic requirements 
to obtain both commercial and airline transport pilot ratings 
in preparation to start a career as an airline pilot. The FAA 
should develop and implement a structured and rigorous ground 
school and testing procedures for pilots who want to qualify to 
fly for Part 121 airlines. ALPA also recommends that airlines 
provide specific command and leadership training courses for 
new captains to instill in them the necessary skills and traits 
to become a real leader on the flight deck.
    Airlines should also implement mentoring programs for both 
captains and first officers as they first enter operations in 
their new crew positions to help them apply the knowledge and 
skills to line operations, and to supplement their own limited 
experience by learning from their experienced peers.
    Flight experience and pilot capabilities cannot be measured 
by mere flight hours. Screening processes should be established 
prior to initial pilot hiring to ensure that new-hire airline 
pilots are indeed the best and brightest as far as abilities, 
airmanship, professionalism and performance.
    Turning to another area of concern, this Committee has 
listened to me and my predecessors since 1990 on pilot fatigue. 
I won't mention anything longer except to say we have talked 
long enough. It is time to implement science-based regulatory 
changes.
    Other means to enhance safety and improve airline 
operations are the data collection and the analysis programs 
such as FOQA and ASAP share that information across the 
industry and then modify and take indeed the best practices and 
implement them.
    In order to allow these programs to grow and make the 
reports more readily obtainable, we will need additional 
legislative protections to be put into place that will limit 
the use of ASAP and FOQA data in civil liability cases. 
Restrictions need to be strengthened to ensure the data is used 
for safety purposes only.
    I will close with many major carriers have implemented 
these type of programs. We want them to spread and be 
protected. The best safety device on any airplane is a well-
trained, well-rested, highly motivated pilot. A strong safety 
culture must be instilled and consistently reinforced from the 
highest levels within an airline and among its code share 
partners. This type of organizational safety culture will 
encourage the highest levels of performance among professional 
pilots, improve airline operations, and, most importantly, 
advance aviation safety so we are not back here again in the 
future. Thank you.
    Mr. Costello. Thank you, Captain Prater.
    The Chair now recognizes Mr. Cohen.
    Mr. Cohen. Chairman Costello, Ranking Member Petri, and 
Members of the Subcommittee, I am Roger Cohen, and I am 
president of the Regional Airline Association. And I want to 
express our deepest sympathies for the lives of the passengers 
and the crew of Flight 3407 that were lost and for their 
families affected by the crash, and that we share in their 
grief.
    I also want to express, not only for our member airlines, 
but for the 60,000 highly trained professionals in our 
industry, our total and unwavering commitment to safety and to 
work towards ensuring that this postaccident process does not 
have to be repeated ever; to take whatever steps are necessary 
to make certain that our flight crews and our airplanes are as 
safe as humanly possible.
    The safety of the Nation's skies is a shared 
responsibility, and our challenge for the Federal aviation 
safety agencies, for the airlines, for our employees is to 
review all of the issues with but one single objective, and 
that is to prevent any future accidents. And as we do that, it 
is important to keep our perspective to reassure the American 
public that flying is extremely safe. In fact, until this 
recent tragedy, commercial airlines had gone the longest period 
in aviation history without a fatal accident.
    Working collectively, airlines have steadily improved our 
safety record over the course of many decades of safety 
initiatives, investigations and reviews of accidents and 
incidents, large and small. Nevertheless, we can do better. And 
our industry's overarching goal has been and always will be 
zero accidents and zero fatalities.
    Mr. Chairman, today we want to better define today's 
regional airlines to clear up any misconceptions, but more 
importantly, we would like to talk about the steps regional 
airlines have already taken and the actions we plan to take to 
further intensify this commitment to safety and accident 
prevention. As has been described, our airplanes typically 
carry up to 100 passengers. More than 50 percent of the 
scheduled flights in the United States are on regional 
airlines, and most notably, three out of every four communities 
in this country with scheduled service are served exclusively 
by regional airlines.
    Our airlines largely operate in seamless partnership with 
the major airlines. Regional airlines provide the crew and the 
aircraft, while major airlines set the flight schedules, the 
fares and the customer service standards. Regional airlines and 
their major airline partners operate as a single integrated 
system, one ticket, one trip, one safety standard.
    All passenger airlines are subject to the exact same FAA 
safety standards and requirements. It has been this way for 
more than a decade. But our goal is to prevent accidents, and 
that is why the Regional Airline Association has embarked upon 
our strategic safety initiative to underscore our safety 
culture and to help prevent accidents, and this strategic 
safety initiative has four elements.
    First, we are bringing together our own safety 
professionals to review all of the procedures and address any 
issue that could even be perceived, perceived, as a 
contributing factor to an accident. Second, we are going to 
conduct a thorough review of fatigue, looking at all the human 
factors that have been described today in the scientific field 
to minimize risks associated with fatigue. Third, REA will 
implement a fatigue awareness management program so that our 
airlines keep this issue at the top of the mind for both their 
flight crews and, just as importantly, airline management.
    The last element is reaching out in partnership with you in 
Congress, across the government, and to our fellow stakeholders 
in labor and throughout the aviation industry to explore the 
full range of issues that could help us improve safety and 
prevent future accidents. And among those are, it has been 
noted, establishing a single integrated FAA database of pilot 
records, exploring random fatigue testing, full examination of 
commuting, extending the period for background checks from 5 to 
10 years, analyzing the information from cockpit voice 
recorders in settings other than accident investigations, and 
mining this great field of check ride data for trends.
    We have already begun implementing this initiative, and we 
look forward to working with this Subcommittee and keep you 
informed throughout the process.
    Mr. Chairman, thank you, and I will be glad to answer any 
questions you might have.
    Mr. Costello. The Chair thanks you, Mr. Cohen, and now 
recognizes Mr. Morgan.
    Mr. Morgan. Mr. Chairman, thank you.
    Mr. Chairman and Committee Members, I would first like to 
take this opportunity to express the condolences from all of us 
at Colgan Air to the families of those who were lost in the 
tragedy of Flight 3407. We know your grief, and I assure you 
that we all have a common goal to prevent such catastrophes 
from ever happening again. The nature of flying airplanes 
entails risk, and it is the job of all professionals in the 
airline industry to reduce that risk to an absolute minimum. As 
such, this process today is vital to that mission.
    Mr. Chairman, every aviation accident teaches us something 
more about how to prevent another tragedy. We all learn from 
our experiences, and as a result, we constantly improve our 
industry. Those of us who have long been part of this industry, 
whether from the airlines, FAA, NTSB or other regulatory 
entities, and particularly those of us from the safety 
departments of the business, are always saddened by the loss of 
any airplane from any airline anywhere in the world. But we 
also know that we what learn from each event will make us 
stronger, and indeed it has.
    In my 30 years as an airline professional, I have seen the 
U.S. airline industry endure some remarkable challenges in a 
constantly changing environment. Our business is incredibly 
complex. The aircraft, the air traffic systems, the intricacies 
of regulations all make this a demanding industry. But the men 
and women I have had the privilege to work with in my career 
have continuously stepped up to the challenges, and because of 
what we have learned, we have made the U.S. commercial airline 
system the absolute best in the world.
    I have no doubt that the next generation of airline 
professionals will continue to face this inexorable challenge 
of change. I believe it is my job, as well as the job of all of 
us in this business, to use our experience and the knowledge we 
have gained in our careers to hand that next generation a safer 
product and, in so doing, leave a safer industry for the public 
to enjoy. And that is why I am here with you today to defer the 
legacy of air travel, safe air travel.
    I appreciate the opportunity to come before this Committee 
today and continue the process of furthering aviation safety. I 
have also provided additional remarks and information in my 
submitted testimony, and I am prepared to address your 
questions and concerns.
    Mr. Costello. The Chair thanks you and now recognizes Mr. 
May.
    Mr. May. Thank you, Mr. Chairman. Good morning, or 
afternoon.
    Let me begin by saying that the crash of the Colgan Air 
aircraft near Buffalo was a tragedy that has produced 
indescribable heartache for the relatives and friends of 
victims of that accident. And I personally expressed my 
condolences to Captain Loftus, and I do so for the rest of the 
families.
    In the airline industry, safety is our highest priority. We 
work closely with all members of the aviation community to 
achieve high levels of safety, including regional airlines. It 
is in that spirit that I appear before you this morning. No 
accident, as you have heard others say, is acceptable. We have 
a responsibility to understand through rigorous and searching 
inquiry the cause of the Buffalo accident and to take whatever 
corrective measures are needed.
    In light of that responsibility, we are very fortunate that 
there are three expert government forums in which that scrutiny 
is happening. This is as it should be. The public needs to be 
confident in our responses to aviation safety issues. The 
National Transportation Safety Board's ongoing investigation 
will produce a far more complete picture than we have today of 
what so tragically unfolded that evening. In this, as is in 
previous accidents, the Board is the authoritative source for 
making that determination and recommending corrective actions.
    In addition, the Department of Transportation's inspector 
general recently began an assessment of the FAA's oversight of 
certification, pilot qualification, training and other issues. 
When that review was announced, we, ATA, immediately offered 
our resources and full cooperation to the inspector general. I 
have met with Inspector General Scovel and his team, and we 
will do so again. His evaluation and the constructive 
suggestions that we know will result from it will augment the 
NTSB's effort.
    Finally, next Monday's FAA-sponsored call to action meeting 
is an immediate, broad-based forum to look at safety issues, 
including those raised at this morning's hearing. ATA was a 
major participant in the runway safety call to action held by 
the FAA 2 years ago that advanced runway safety through the 
well-informed assessments and concrete recommendations of the 
participants.
    We look forward to being equally engaged with the FAA and 
other interested stakeholders in the vital work that will begin 
next Monday. And I think it is actually Tuesday. Although we 
won't have the results of the NTSB's investigation and the 
inspector general review for some time, we do expect similar 
positive results.
    I don't believe that any topic, any topic, should be off 
the table at the call to action meeting. We need to have a full 
and frank conversation about safety. So let me suggest seven 
subjects that, for openers, should be considered. First, 
mandatorily applying the FOQA, Flight Operational Quality 
Assurance, programs used by major carriers to regional 
airlines. FOQA works. The collection and analysis of data 
recorded during flight improves safety.
    Second, applying Aviation Safety Action Program, ASAP, 
which encourages voluntary reporting of safety issues and 
events that come to the attention of employees to those 
regional airlines that do not have such a program already.
    Third, identifying advanced training best practices of 
major carriers for use by regional airlines like AQP for 
training.
    Fourth--this has been said by others today--we need to have 
a centralized database of pilot records to help airlines 
evaluate the backgrounds of applicants for flight deck 
positions. We think that the FAA should determine if such a 
system can be efficiently, effectively implemented.
    Fifth, the issue of compliance with the sterile cockpit 
rule has been raised. Let us see if FAA needs to increase 
compliance oversight in this area.
    Sixth, let us examine flight crew preparedness. In 
particular we should look at what crew members have done before 
they have reported to work that may affect their performance in 
the cockpit.
    And seventh, let us also examine crew member commuting and 
whether it requires additional attention.
    Mr. Chairman, we are committed to working with the 
stakeholders to develop solutions to any safety issues, 
including those that emerge from these three important 
governmental initiatives. Thank you.
    Mr. Costello. The Chair thanks you and now recognizes Dr. 
Graeber.
    Mr. Graeber. Chairman Costello, Ranking Member Petri and 
distinguished Members of the Subcommittee, my name is Curtis 
Graeber. I am a fellow of the Flight Safety Foundation and a 
former NASA scientist.
    The foundation is an international organization dedicated 
to the continuous improvement of global aviation safety, and we 
appreciate the opportunity to testify about recent scientific 
progress related to flight crew fatigue.
    Unfortunately, fatigue is ubiquitous and unavoidable in 
aviation. To address it, regulators have traditionally imposed 
limits governing how long and how often pilots can operate an 
airplane. Different countries impose different limits usually 
based on very little scientific knowledge. The FAA's flight-
time limitations are no different and have remained essentially 
unchanged for 50 years.
    Several attempts have failed to update the regulations; 
however, such efforts would likely result in little improvement 
because they are really attempts to tweak what already exists. 
More effective tools are needed. Fortunately over the past 
three decades, there has been an extensive scientific effort to 
better understand the complex origins of fatigue, its impact on 
performance and how to mitigate its risk.
    In 1980, the Congress directed NASA to undertake a 
multiyear effort to improve our understanding of crew fatigue 
and jet lag. The results of this work, as well as other 
nonaviation studies, can now provide the scientific basis for a 
paradigm shift in how we manage fatigue risk. This shift is 
known as fatigue risk management, a systematic approach to 
addressing fatigue in a comprehensive, proactive manner that 
does not rely solely on adherence to a set of prescribed hourly 
limits. In its broadest form, fatigue risk management takes a 
systematic, three-pronged approach incrementally to manage 
fatigue risk: prevention, mitigation and intervention.
    The first step, prevention, can be characterized as 
strategic risk prevention. It includes such measures as 
scientifically defensible scheduling and education about sleep 
and fatigue. We believe that this step should also include 
medical identification and treatment of sleep disorders. 
However, the FAA's medical examination has no requirement to 
identify them in pilots. It should.
    The second step encompasses risk mitigation at the 
operational level.
    The final step, intervention, recognizes the inevitable 
fact that crews sometimes experience significant fatigue 
despite the best efforts to prevent it. It may include 
interventions such as controlled rest on the flight deck.
    A key part of the initial prevention step involves the 
alternative use of a fatigue risk management system, or FRMS, 
in place of prescribed flight-duty limits to determine what is 
``scientifically defensible scheduling.'' It takes into account 
known variables that affect sleep and alertness which 
prescriptive flight-duty limits cannot address.
    In contrast to prescriptive limits, an FRMS employs a 
multilayered, data-driven defense to manage operational fatigue 
risk proactively. Objective and subjective data related to crew 
alertness, as well as FOQA data, are routinely collected and 
analyzed to monitor where fatigue risk occurs and where safety 
may be jeopardized. The system then allows for generating new 
scheduling solutions or other strategies to mitigate measured 
fatigue risk. At the same time, FRMS provides operators with 
flexibility to seek the most efficient, safe crewing solutions 
to meet operational needs.
    In early 2006, ICAO established a subgroup to develop an 
international regulatory framework for fatigue risk management. 
Their starting point was the model developed by the Flight 
Safety Foundation for ultra-long-range operations beyond 16 
hours. ICAO's draft framework recommends incorporating FRMS 
into an operator's proactive and accountable SMS. The Flight 
Safety Foundation strongly encourages the industry to adopt a 
proactive approach of prevention, mitigation and intervention 
to systematically address fatigue risk management.
    The United States aviation community can no longer treat 
fatigue risk as just another rule that has to be met. We 
congratulate the FAA for sponsoring a major international 
symposium on aviation fatigue management last June. Several 
non-U.S. airlines reported on their successful implementation 
of FRMS that has resulted in enhanced safety, improved crew 
satisfaction, greater operational flexibility, and lower costs, 
including insurance premiums.
    The foundation also believes that controlled rest on the 
flight deck should be made legal for use when necessary for the 
safety of flight. Its effectiveness was demonstrated 
dramatically by NASA in 1989 and incorporated into a draft 
advisory circular in 1993, yet it has never been implemented in 
the United States. Numerous authorities around the world have 
approved it. It has been successfully used by foreign carriers 
since 1994, and, frankly, the oft-repeated excuse that it 
doesn't pass the `Jay Leno' test isn't valid anymore.
    Finally, the foundation urges the FAA to further develop 
and implement fatigue risk management on a trial basis, as it 
is already doing for ultra-long-range flights from the U.S. to 
Mumbai and to Hong Kong. Together these actions will enable 
U.S. Commercial aviation to enhance its level of safety with 
regard to fatigue risk and do so efficiently and proactively. 
The foundation believes the United States should be leading the 
world in fatigue risk management instead of following it.
    Mr. Chairman, thank you, and I am happy to answer any 
questions.
    Mr. Costello. Thank you, Dr. Graeber.
    And the Chair now recognizes Dr. Ayers.
    Mr. Ayers. Chairman Costello, Ranking Member Petri, 
Chairman Oberstar, Committee Members, my name is Frank Ayers, 
and I have the privilege of managing the training for all the 
pilots at Embry-Riddle Aeronautical University in Daytona 
Beach, Florida, who are moving on to the regional and the major 
airlines. As you may be aware, Embry-Riddle was founded as a 
flight training school in 1926; in fact, well before many of 
the major airlines and the regional airlines. In the 
intervening 83 years, while we have expanded to become a major 
engineering, business and aviation university, our core 
capability has always been in producing the best pilots 
available in the industry.
    As I listened to Captain Prater's comments about what a 
training organization should be, I reflected back on what I see 
every day at Embry-Riddle, and I think it might inform the 
discussion of how training is done for young people who move 
from off-the-street into regional airline cockpits.
    First, the program at Embry-Riddle has high selection 
standards. You have to compete to get into the program, and 
then you compete against the high academic standards of a 4-
year university to remain in the program and to graduate. 
Competition is good. It is the hallmark of military flight 
training and other very successful flight training programs 
around the world.
    Additionally, our program is extensively peer reviewed. 
There are about 30 major universities that band together under 
an organization called the Aviation Accreditation Board 
International, and we willingly submit ourselves to peer review 
of our program. That increases the strength of our program, and 
it spreads the good word in a collegial atmosphere to other 
institutions so all the boats rise on the tide at the same 
time.
    Additionally, we think a program that teaches pilots to fly 
in the regionals and in the majors should be stable 
financially. In our area alone, we have had three flight 
training providers go bankrupt or go out of business in the 
last 6 months; two, in fact, in the last 3 months. Most was 
significant loss of money to the individual and a loss of 
training.
    We think it is important that students that put down a 
sizeable amount of money, maybe 60- or $70,000, there is an 
expectation that they will graduate. Again, in the collegiate 
aviation training environment, that expectation is that you 
have an opportunity to compete against the standard to 
graduate. And we think that is a much better way of doing 
business than simply cash for training.
    A successful aviation training program like ours has a 
strong academic quotient. In the first 1-1/2 years of a 4-year 
degree, our students complete all the academic work associated 
with the FAA-required commercial pilot certificate, and that is 
the certificate required to become a regional airline pilot. 
However, the next 2-1/2 years in a bachelor of science degree 
program heavy on math and physics, our students essentially get 
the same education that a senior 747 captain has, while 
certainly not their experience, but they get that same 
education in jet engine systems, in weather, icing, autopilot 
usage, all those various functions.
    We think it is very important that they be fully prepared 
to fly jet aircraft.
    Additionally, the flight training and simulation program 
that supports their training should be a modern one. We have 
chosen at Embry-Riddle to follow Part 142 of the Code of 
Federal Regulation. We are the only major university and one of 
the few general aviation training programs that trains under 
Part 142, which is essentially the way the airlines train.
    After the downturn in our business after 9/11, in 2003, our 
university made a huge investment in technology, almost $10 
million in simulators and about $2 million in Automatic 
Dependent Surveillance Broadcast equipment so that our students 
would be on the cutting edge of aviation training. By being in 
Part 142, we do about 35 percent of our training in those 
simulators where we can train for those emergencies in real 
time. And we think even though it subjects us to greater FAA 
scrutiny, it is the way to train. It is what we should be 
doing.
    I would also speak in my remaining couple seconds here for 
the young men and women that I work with all the time. They 
would ask that at the completion of this rigorous program that 
they could make a living wage. I think the combination of the 
low wage and the commuting situation we have right now is very 
challenging. If you are a senior captain and can have a home in 
Florida where I live, it is a really good thing. But if you are 
a young person making $22,000 a year, it is a lot of expense.
    In closing, I would say Embry-Riddle shares the grief in 
this tragedy. We have a young man--had a young man named Joseph 
Zuffoletto. Joseph was a pilot for Colgan. He was dead-heading 
in the back of the aircraft, and he was a graduate of our 
Prescott program, an outstanding young man and an outstanding 
young pilot. And we grieve for all the victims of the Buffalo 
crash because the Embry-Riddle community grieves as well.
    We thank you for your attention, and I stand ready for your 
questions.
    Mr. Costello. Thank you Dr. Ayers.
    Captain Prater, in your written testimony you talk about 
the fatigue cushion that was once provided and was negotiated 
as part of the work rules has virtually been eliminated by the 
airlines. Tell us why that is.
    Mr. Prater. Chairman Costello, thank you. One of Captain 
Babbitt's predecessors, I believe it was Admiral Engen, once 
said, we don't have to change the flight-duty time FARs because 
the ALPA contracts are more conservative. They are safer than 
that.
    I would say through the processes of bankruptcy, we have 
lost many of the work rules that used to make our contracts 
safer. They were above the FARs. I will give you some concrete 
evidence.
    As a new airline pilot back in late 1970s, early 1980s, I 
would fly approximately and be paid for 75 to 79 hours a month. 
That took in the credit time, so if my duty day was 15 hours 
long, I was not paid or credited with just the 3 hours that I 
actually flew. I was given a credit for, say, 5 hours. That 
limited me to how many days I worked.
    After bankruptcy, at Continental in 1983, we went to basic 
FAR minimums. It has greatly increased the workloads of pilots. 
What we have seen in the last round of bankruptcies following 
9/11 is that has spread to all corners of the industry.
    The regional industry was created to make up for the loss 
of the national industry. We lost all the airlines like Ozark 
and North Central. Those airlines were career pilot jobs. They 
had career contracts. They had pension plans, if you can 
imagine that. Now those are all gone. They have been replaced 
because the major carriers are looking for a cheaper way to do 
business. They created the regional industry, and they are at 
the very minimums of pay, and they fly right up on the maximum 
FARs, and we have been unable to change that through collective 
bargaining. Hopefully we will be able to change that so that we 
can make it a better job and make it a more stable career. 
Thank you.
    Mr. Costello. So the bottom line is it is all about money.
    Mr. Prater. Not at all. I like to go home every night after 
my trip. I want to get home. Over half of the founders of the 
Air Line Pilots Association were pilots in their thirties, died 
in airplane crashes. Our foundation as a union is based upon 
professional standards. It is based upon increasing those 
safety standards. We dedicate ourselves to that, and we charge 
our members a very high rate to be part of that.
    Mr. Costello. I think maybe you may have misunderstood my 
question or my comment, and it is all about money where the 
airlines are concerned as far as cutting back on the work rules 
relative to fatigue cushion and a number of other things.
    Mr. Prater. We are actually proud to work for airlines. We 
want to do a good job. They are under tremendous competitive 
pressures. They have gotten too low. The competition has led us 
to look for every cut in every corner, and I believe that is 
cutting into the fabric of the safety levels that we see.
    Mr. Costello. Captain Prater, how does your--you heard Mr. 
May talk about a centralized pilot record system, a database, 
and others have mentioned that as well. How does ALPA feel 
about a centralized database?
    Mr. Prater. Well, obviously we are much more concerned 
about the performance day in and day out. As Captain Babbitt 
said, airline pilots are tested continually. There is a lot of 
information available to our employers or prospective employers 
about our performance. But just like hours in a log book, it is 
what you do today, and you have to prove yourself day in and 
day out. Whether a young pilot at Embry-Riddle failed a 
maneuver on his commercial test, such as turns about a point or 
spiraling maneuvers, and had to retake that provision, that is 
not that important to an airline. Now, trend analysis, how many 
failures, multiple failures on the same maneuver, that would 
raise the awareness.
    But there are no perfect pilots. I don't represent any. I 
haven't been one. We learn by making mistakes. We are a safe 
airline crew because we have got a first officer that is 
trained at that same level and traps my mistake and catches it. 
That is the foundation of airline safety in the cockpit.
    Mr. Costello. Mr. Morgan, you state that Colgan recently 
increased the minimum flight experience requirements for new 
pilots and captain upgrade candidates. Tell us what the old 
standard was and what the new standard is.
    Mr. Morgan. The new standard was implemented in October of 
last year, and that standard is 1,000 hours for minimum time. 
The standard prior to that was 600 total time and 100 hours of 
multiengine time.
    Mr. Costello. Why did you find it in essential to increase 
the minimum standards?
    Mr. Moran. We didn't necessarily find it a necessity to 
increase the time, but certainly with the market supply of 
pilots that is out there today, you can go to a higher 
standard, although we do feel as we move into a larger 
aircraft, more experience was necessary to do.
    Mr. Costello. You indicate also--let us talk a little about 
bit about the stick pusher training. Colgan required that in an 
academic sense, but not in a simulator; is that correct?
    Mr. Morgan. That is correct, sir.
    Mr. Costello. Why is that?
    Mr. Morgan. The approach to training for the stalls has 
been long done this way in the industry. But it is more of the 
recognition and recovery from a stall rather than going full to 
the stick pusher. This was something that is termed for a long 
time, I believe, negative training. We wanted to take a 
positive training step that says we are going to teach you how 
to recognize that you are approaching a stall; when you reach a 
stall, you recover from the stall. You should never reach a 
point where the stick pusher gets activated. Therefore we felt 
it was appropriate to make you aware that the stick pusher was 
there, but not to train you, because you should never, ever see 
it.
    Mr. Costello. Mr. Loftus, would you like to comment?
    Mr. Loftus. Yeah. I think that is a big mistake to make. I 
can't see their logic behind why you wouldn't demonstrate at 
least the stick pusher. It takes about 2 minutes to do that in 
a simulator, to do it properly, to avail the students to at 
least be aware of what is going to happen. If anyone has ever 
been in a simulator and experienced that condition, it is like 
a three-alarm fire, and to be able to think and make the right 
callouts, it is--I don't know why you wouldn't want to do it.
    Mr. Costello. Mr. Morgan, through--as a result of the NTSB 
3-day hearings, it was revealed that Captain Renslow had four 
disapprovals due to failed check rides during his career. Three 
occurred before he was hired by Colgan and included failed 
check rides for his commercial pilot instrument, his complete 
commercial and his commercial multiengine certificate. What did 
you know at the time? What did Colgan know at the time as far 
as Captain Renslow's record when he was hired and then promoted 
from first officer to captain?
    Mr. Morgan. At the time, sir, what we knew was what we were 
able to retrieve through the PRIA system and what Mr. Renslow 
provided to us on his application. We used the 5-year 
background check as reported under PRIA. We did not have 
anything that was reported by Mr. Renslow as having any 
previous failures. The failures that he had achieved or had 
experienced while he was with Colgan, each of those we followed 
the process to remove him from flying until he successfully 
completed that check and moved on up to the next level, as any 
other pilot would do when they failed a check.
    Mr. Costello. The Chair now recognizes the Ranking Member 
Mr. Petri.
    Mr. Petri. Thank you very much. I thank all of you for your 
testimony.
    I have a lot of questions and little time, so I will do my 
best to touch on a few highlights. And especially, Mr. Loftus, 
you bring a concern and knowledge to this, and hopefully it 
will be very helpful to us as we go forward.
    In your testimony you emphasized, as I understood it, two 
things really, the importance of experience and of training. 
And really, I guess, being a pilot is--there is kind of a--you 
learn tricks of the trade, in effect, by working with people 
who have had the experience and passed that down, as happens in 
many aspects.
    You didn't really talk about fatigue. I know that is an 
issue in transportation broadly, people driving, whether it is 
any vehicle, and trying to make sure that that doesn't 
overwhelm safety. I know that the investigation is still going 
forward, but do you feel that that was a problem or is really 
more training?
    Mr. Loftus. I addressed it in my written statement a little 
bit. But, yes, I do think it is a common problem; maybe not 
with more experienced pilots. They know how to manage, they 
have been there doing it 20 years, so they have learned to 
manage their time. They are making more money, too. They can 
afford to buy a crash pad or a hotel room or day room to get 
their rest when they come in and commute. But many times I have 
flown repeated hours--my hours at Express, 8, 10 legs a day, 
and then have to fly Part 91 at night back to a maintenance 
base, inherently very dangerous. These things need to be 
addressed.
    I think the commuting aspect needs to be addressed outside 
the bargaining area. I think that is why it took us two tries 
in the contract. In contract 97 they subsequently got it, at 
Continental Express, a commuter policy, an effective commuter 
policy which allows for pilots to get into the base, but it 
also gives the company some protections, too, and some heads up 
and things. And I think that would be a good--commuting is 
going to stay around forever. Pilots are going to live where 
they want to live. They are going to work where they work, and 
follow the equipment they want to base by base. But I think an 
effective commuter policy that works both for the airlines and 
the pilots would be effective in this avenue instead of 
regulations. I think no matter what you are going to do, people 
are still going to live where they want to live. I think a 
better way to attempt it, to solve the problem, would be a 
commuter policy outside the bargaining area.
    Mr. Petri. The whole plane was lost, the passengers and the 
crew. They clearly had an interest in trying to operate the 
plane's safety. They lost their lives as well. I am not an 
expert, but it makes me think that training and preparation are 
absolutely key, because the person has every desire to react 
correctly.
    Mr. Loftus. One of my favorite sayings was that there was 
only one person's life that was more important on that aircraft 
than the passengers, and that was mine. I wanted to be around 
at the end of the day. I think every pilot has that feeling as 
well.
    Mr. Petri. One other area I wonder if I could just touch on 
and that is alluded to quite a bit in the testimony, that is 
the relationship between the major airlines and the commuter 
airlines and whether there is adequate provisions for the 
majors to supervise and ensure the safety of the feeder 
airlines. And I wonder, Mr. Cohen, if you could address that.
    Mr. Cohen. Thank you, Mr. Petri.
    There is a number of these programs. All the programs that 
you have heard about today, ASAP, FOQA, LOSA, those are shared 
extensively throughout the regional industry as well. The 
relationship between these carriers that--we have regular 
meetings with all the mainline people, both directly and under 
the umbrella of the associations, through the ATA and the RAA. 
So there is quite an extensive interrelationship. It is one of 
the reasons we are such enthusiastic supporters of the call to 
action next week, that we can actually make this even--
institutionalize this even more. We are strong supporters of 
it.
    Mr. Costello. The Chair now recognizes Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Captain Prater, I would just like to give you some quotes 
from some of your predecessors testifying before this Committee 
from ALPA, Mr. Dwayne Worth: Pilots have been disciplined, 
including terminated, for calling in fatigued. They have been 
called in to see the chief pilot, which is, again, a varied 
response depending upon the nature of the airline, nature of 
the management team and whether they have the benefit of a 
union contract. So clearly what we need is a Federal regulation 
to make that a nonquestion of compliance.
    That was 1999. Then, of course, we have the current FAA 
Administrator from that 1999 hearing, Captain Babbitt: The 
intimidation factor is clearly there. I could parade a string 
of witnesses in here that would shock you. There is no private 
whistle-blower protection. The pilots are intimidated. What 
quite often will happen is pilots resist that and again I can 
present hard copy where a pilot is terminated. We use 
agreements machinery and defend them. In maybe 8 or 10 months a 
neutral will give him his job back. In the meantime, who paid 
him? I can assure you that is a lesson to the pilots. They are 
intimidated by the carrier.
    Does this still go on?
    Mr. Prater. Yes. Absolutely. We still have managements that 
believe they can push pilots by threatening them because the 
flight must go on the trip must go on or we don't get paid.
    I am saying the airlines--some airlines continue to battle 
practices that were first created in the Lorenzo era, in my 
time, maybe the Cord era in earlier times. They continue to 
push pilots. They threaten them with terminations. And we see 
it. We then win the grievances, and they refuse to reinstate 
pilots.
    So when we look under the covers starting next week with 
Captain Babbitt, I will parade those people in here where we 
are still seeing those practices. I will name names to Captain 
Babbitt at that time and let them deal with it.
    I believe that the major airline that sells the ticket must 
ensure those practices do not exist within any of the carriers 
that they use, whether they own them or whether they outsource 
them to other contract carriers. But those practices are alive 
and well, sir.
    Mr. DeFazio. What would the representative of the regional 
transport association say in response to that? Is he lying, 
making it up?
    Mr. Cohen. If those kind of practices exist, they should 
not exist.
    Mr. DeFazio. Okay. So we have been hearing this for 17 
years. Probably there are hearings before that on this 
Committee that I don't recall. I have just gone back to review 
transcripts from 1992.
    At least you are a little more in line here, but the RTA 
representative back then gave me the example of what if you are 
in Bend, Oregon, and the pilot says he is too tired to fly? I 
said, great, I will take the bus back over to the valley with 
him. I don't want to fly if he doesn't want to fly.
    The point is, everybody--you, Mr. Morgan and the ATA--all 
say, well, it is the pilot's call. It is the pilot's call. But 
we are hearing from Captain Prater it is not the pilot's call 
if he or she values their job in some of these organizations.
    We have got to root this out. I mean, we just have to root 
this out. I mean, I can't believe--I have been hearing this for 
17 years, and we have heard it from the current head of the FAA 
17 years ago, and it is still going on.
    We have here a blind study. Dr. John Caldwell, a fatigue 
management consultant for the Air Force and Army, his research 
found that 80 percent of regional pilots surveyed they had 
nodded off during a flight and that scheduling factors such as 
multiple takeoffs and landings every day were top contributors 
to operational fatigue. Do you acknowledge that we have got a 
problem here?
    Mr. Cohen. Mr. Chairman, Mr. DeFazio, issues of fatigue is 
right at the top of the list of human factors, that we have 
said that we need--as Mr. May pointed out, we need to be 
looking at all of these issues, because it is time to address 
all of these issues in a holistic way.
    Mr. DeFazio. My key point over all the years has been--and 
I made it to the earlier panel. If we adopt a standard that 
everybody has to follow that prevents these problems, then 
nobody is at a competitive disadvantage and you don't have to 
worry about that one bad actor who is trying to drag everybody 
down.
    Hey, I can provide a cheaper flight. How can you do that? 
Well, my pilots are tired, they are not as well-trained, my 
planes aren't as well-maintained, the FAA doesn't really impose 
those things on us.
    We have got to get rid of that. That has got to go. If we 
are assuring people of safety, then that stuff has got to go 
and nobody is going to be at a disadvantage. Everybody starts 
at the same place. I would hope the associations support robust 
changes that will bring about an end to these practices.
    Mr. May.
    Mr. May. Congressman, I think from the ATA's perspective, 
we absolutely do. We have said in the past--I mean, Dwayne 
Worth and John Prater and Randy Babbitt have vastly more 
experience in this industry than I do, so I am not going to sit 
here and try to suggest they are wrong. But I think there is 
now a forum, run by one of the three as a matter of fact, that 
we will all be participating in next week.
    I am sure the issue of fatigue and flight and duty time 
needs to come up, should come up. I think the issues of 
commuting and the impact that has on readiness, I think the 
issue of professionalism of pilots needs to come up. All of 
these issues need to be addressed. They need to be laid on the 
table. There ought not to be any restrictions as to what 
subjects are there. And if Captain Prater has specific evidence 
of pilot pushing by carriers, I think we would welcome seeing 
that put on the table.
    Mr. DeFazio. Are you going to do that, Captain Prater?
    Mr. Prater. I would be more than happy to.
    Mr. DeFazio. Thank you, thank you, Mr. Chairman.
    Mr. Costello. Sure. The Chair thanks the gentleman and now 
recognizes the Ranking Member of the Full Committee, Mr. Mica.
    Mr. Mica. Thank you.
    I am pleased to see Dr. Ayers here from Embry-Riddle, which 
happens to be located in my congressional district. It is 
without question the finest aeronautical institute and 
university not only in the United States but the world. 
Everywhere I go I am proud to meet graduates in every field of 
aviation industry who are absolutely outstanding.
    I venture to say--and you don't have to respond to this--
that very few of your graduates are involved in some of these 
issues, because I have never seen anything but, again, the 
highest standards performed by those graduates who are--first 
come so dedicated and then are so professional.
    I am going to ask my staff to look at the background of 
some of these flights where we have had fatalities just out of 
curiosity to see the difference in training. I don't know if 
you want to comment, Dr. Ayers.
    Mr. Ayers. I certainly would. Let me expand upon my 
statement a little bit.
    We think that it is not how many hours a pilot has in their 
logbook, but what was done, what was examined, what was 
measured, what was trained in that hour. And we really stand 
ready as a university with a deep research background to 
provide some science to some of this discussion so we can see 
what it really does take.
    We think what we have come to--and on the second page of my 
prepared remarks there is data that shows that our pilots, even 
with fairly low hours, in the 500-hour range, score in the same 
area where military pilots do. We are very proud to be in that 
group. That is a very high echelon of aviation expertise. So we 
do think that how we train makes a difference.
    Mr. Mica. Mr. Cohen and Mr. Prater, do you favor opening 
performance records and training certification to, again, the 
employers without restriction?
    Mr. Cohen. Mr. Chairman, Mr. Mica, absolutely. It is the 
number one thing that we have proposed.
    Mr. Mica. How about you, Mr. Prater?
    Mr. Prater. I believe the full background should be 
available. But that raises another level, sir, and that means 
that those records have to be kept in some type of standardized 
basis so we are comparing apples with apples.
    Mr. Mica. Very good.
    Mr. May, if I had a pound of butter and I spread it over 10 
loaves of bread----
    Mr. Prater. The answer is 14.
    Mr. Mica. But then if I had a pound of butter and I spread 
it over 20 loaves of bread, what would happen with the second 
20 loaves of bread? Your answer is they get less butter.
    Mr. May. I think that is the answer that is expected. I am 
not sure that is the case with aviation safety.
    Mr. Mica. What I want to do is take the number of 
inspectors--I looked at the administration's proposal. There is 
a 4.4 percent increase in safety operations. But we are also 
mandating from Congress some inspections for foreign repair 
stations that we already have being done at the same standards. 
So we are taking personnel to do what is done--existing 
standards and using those personnel where we don't need them. 
Wouldn't you think it would be better served to spread that 
butter where we need the coverage?
    Mr. May. I think that makes ultimately good sense, Mr. 
Mica, but it raises an interesting point. We have talked about 
one level of safety here. I think on paper we have one level of 
safety, certainly. It is called FAR 121. And we all, whether it 
is a regional airline commuter, airline mainline carrier have 
to live up to the principles and standards of FAR 121. The 
question is whether or not it is being aggressively enforced, 
audited, et cetera.
    Mr. Mica. That is where spreading the butter thinner and 
doing things we don't need to do--thank you.
    Mr. May. May I have one moment?
    Mr. Mica. No, I am running out of time. Mr. Costello holds 
me right to the--he gives me a little bit of leeway as the 
Ranking Member.
    But I just want to get a question on the record about the 
way compensation is determined for regional carriers. Now, I am 
told it is a negotiation between I guess the union or the pilot 
representatives and the air carrier. Is that the way it is 
done, Mr. Cohen?
    Honestly, I don't know the answer to my question. Mr. 
Prater, I have been told--is there is a preliminary wage level 
set and then is there--can you explain to the Committee how 
that is done? Because I have heard a lot about wages and the 
airlines are doing--that the regionals are doing this on the 
cheap and pilots aren't getting paid adequate compensation or 
copilots are getting far less than they should and pilots get a 
certain--how is that compensation determined?
    Mr. Cohen. At all but one of our carriers, every one of the 
agreements for the crew members is collectively bargained.
    Mr. Mica. That is a determination between, again, the 
pilots' representatives and the airlines. And then the 
difference between the levels, say, for a captain or the 
primary pilot and the copilot or lesser position, is that also 
part of that----
    Mr. Cohen. Also all covered under the collective bargaining 
agreement.
    Mr. Mica. So it is agreed upon by the union or the 
representative and the airline?
    Mr. Cohen. Correct.
    Mr. Mica. Thank you.
    Mr. Costello. The Chair thanks you, Mr. Mica; and let me 
thank all of our witnesses for being here to testify today, in 
particular you, Mr. Loftus, on behalf of the families. I can 
assure you and the family members who are with us and those who 
could not be with us today that this Subcommittee is not going 
to let this issue slip away, that we are going to work--we are 
looking forward, as all of you are, to the meeting on Monday 
with the Department of Transportation and the FAA Administrator 
to see what comes out of that meeting.
    But it is clear at least to me--I can't speak for other 
Members of the Subcommittee--that we can no longer rely on 
recommendations by the FAA, that some standards are going to 
have to be changed. And I think we need to look at the 
relationship between the major carriers and the regional 
airlines, and I think we need to take a look at the training to 
find out if, in fact--for instance, some of the issues that we 
talked about today should be incorporated as mandatory training 
as opposed to leaving it up to the airlines, to their 
discretion.
    Obviously, fatigue is a major factor. As Captain Prater 
said, this not the first time that he has talked about the 
issue before the Committee. We have heard others, not only 
pilots but air traffic controllers and others within the 
system, talk about their concern. We have heard testimony from 
the Inspector General, we heard testimony from the GAO on the 
issue of fatigue.
    I think we need to look at pilot records and to determine 
if we need a data bank and how far those records--how far we 
can go back so that all of the airlines have access when they 
are hiring a new first officer, a new pilot to know what that 
person's record is, as well as all of the NTSB's 
recommendations.
    I, at least, feel at this point that with the new 
administrator, given his background and his experience as a 
pilot and with ALPA, that he understands the importance of when 
the NTSB makes a recommendation that he is going to implement a 
system to review those recommendations, figure out either, one, 
implement them, two, modify them or, three, reject them and 
give a solid reason for rejecting them and to get reports to us 
and to the Congress on these issues.
    So, again, we thank all of you for being here today to 
offer your testimony; and let me just say that, again, we are 
going to do everything we can to continue to focus, as we did 
with the past administration, with this administration, to 
follow our responsibility to provide the oversight so that the 
FAA and others in the system are doing what they need to do to 
continue to have the safest aviation system in the world.
    With that, I would ask the Ranking Member, Mr. Petri, if he 
has any final thoughts or comments.
    Mr. Petri. No. We join you in the determination to stick 
with this; and, again, thank you all for being here.
    Mr. Costello. Again, thank you.
    That concludes the hearing today, and the Subcommittee 
stands adjourned.
    [Whereupon, at 1:49 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
